<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                        THURSDAY, APRIL 26, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                   Washington, D.C.
    The subcommittee met at 10:30 a.m. in Room SD-138 Dirksen 
Senate Office Building, Hon. John Boozman (chairman) presiding.
    Present: Senators Boozman, Murkowski, Hoeven, Collins, 
Moran, Schatz, Tester, Udall, and Murphy.

                         DEPARTMENT OF DEFENSE

STATEMENT OF HON. LUCIAN NIEMEYER, ASSISTANT SECRETARY 
            OF DEFENSE FOR ENERGY, INSTALLATIONS & 
            ENVIRONMENT


               opening statement of senator john boozman


    Senator Boozman. The meeting will come to order. In the 
spirit of having our military here, we're going to get started 
on time. So we appreciate you all being here very, very much.
    The subcommittee will come to order. Today, we're meeting 
to discuss the President's fiscal year 2019 Budget Request for 
Military Construction, Family Housing, and Base Realignment and 
Closure for the Department of Defense.
    The fiscal year 2019 Budget Request of $10.5 billion 
reflects a slight increase over the 2018-enacted level of $10.1 
billion.
    MILCON delivers facility investments that contribute to 
current and future force readiness, whether they support the 
next generation of weapons systems, provide support to the 
combatant commanders or strengthen partnerships with our 
allies.
    Facility investments improve the quality of life for our 
soldiers, airmen, sailors, and Marines not only with mission-
critical facilities but with improvements in family housing, 
schools, healthcare, and a variety of support facilities.
    While the fiscal year 2019 MILCON Request is an improvement 
over the historically-low request from prior years, this 
request remains relatively flat compared to fiscal year 2018.
    The MILCON Portfolio has been taking on increasing levels 
of risk for years. Its limited resources have been put towards 
higher-priority readiness issues. Critical recapitalization 
projects have been displaced as an already-constrained budget 
is squeezed even further to accommodate new platforms and 
weapons systems.
    Compounding with the long list of deferred capitalization, 
the increased complexity of facilities needed to support 
today's weapons systems are putting further strain on the 
budget. Buildings today are more complex in design and function 
than traditional construction projects, resulting in higher 
costs and critical construction schedules as new platforms and 
weapons systems are interdependent with their new facilities.
    There are more projects that exceed a $100 million in 
fiscal year 2019 budget than the post four budget requests 
combined. As cost of construction projects continue to rise, 
affordability decreases as large and complex projects take a 
greater share of the budget.
    In light of the environment just described, it is 
disappointing the infrastructure did not receive any increases 
from the recent budget cap agreement. It's also frustrating 
that half of the department decided not to submit an unfunded 
priority list when all of the services have acknowledged the 
substantial backlog of MILCON requirements.
    Increases in the fiscal year 2019 Budget Request begin to 
improve our infrastructure but reversing years of under-funding 
while simultaneously building ready and resilient installations 
to support changing global posture will remain a challenge.
    We must work smarter and find innovative solutions to bring 
the right investment at the right time on schedule and within 
budget to deliver facilities that provide maximum readiness and 
war-fighting capability.
    Today, we will hear from representatives of all the 
military services as well as the Office of the Secretary of 
Defense.
    Joining us are Mr. Lucian Niemeyer, Assistant Secretary of 
Defense for Energy, Installations & Environment, Lieutenant 
General Gwendolyn Bingham, Assistant Chief of Staff of the Army 
for Installation Management, Vice Admiral Dixon R. Smith, 
Deputy Chief of Naval Operations for Fleet Readiness & 
Logistics, Major General Vincent Coglianese, Commander of 
Marine Corps Installation Command and Assistant Deputy 
Commandant, Installations and Logistics, and Major General 
Timothy S. Green, Air Force Deputy Chief of Staff for Logistics 
Engineering and Force Protection and Director of Civil 
Engineers.
    The subcommittee looks forward to your testimony. Before we 
turn to our witnesses, I'd like to recognize my colleague, the 
Senator from Hawaii, for his opening remarks, and also this is 
the--as you know, there's been a reshuffling. It really is a 
real honor to serve with Senator Schatz and look forward to a 
very close relationship. The great thing about this committee 
is it's very bipartisan in the things that we attempt to get 
done and again we really do look forward to working not only 
with you but even better your staff.


               opening statement of senator brian schatz


    Senator Schatz. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing to discuss the fiscal year 
2019 Military Construction and Family Housing Budget Request.
    I also want to congratulate you on taking over this 
subcommittee. As a leader on the Veterans Affairs Committee and 
in the Senate Air Force Caucus, you are well aware of the 
challenges facing our veterans along with our men and women in 
uniform.
    I also want to thank our outgoing chairman, Senator Moran, 
for his friendship and collaboration as we completed the 2018 
Omnibus. That bill represented an important effort to move us 
in the right direction on military infrastructure and because 
of his leadership, this subcommittee has made great strides in 
fulfilling the promises made to our veterans and I'm looking 
forward to working with you, Mr. Chairman.
    I'd also like to welcome the members of our panel and look 
forward to your testimony.
    General Green, this will be your last time testifying 
before this subcommittee, and we want to thank you for your 
more than 30 years of service and wish you well in retirement.
    For too long, we have put off properly investing in our 
military facilities. That has put the department and the 
services in a difficult position. They have had to sacrifice 
infrastructure and sustainment so that they can pay for other 
important investments, like urgent non-infrastructure, 
readiness requirements, and new missions and operations. These 
hard choices have been made more difficult by nearly two 
decades of conflicts, sequestration, and CRs.
    While there's been some relief from these fiscal pressures 
with the bipartisan budget agreement, MILCON has not seen the 
windfall other DOD accounts have under this budget deal.
    We must not continue to overlook our neglected facilities. 
This is where our service members live, train, and maintain 
vehicles and aircraft. This is the home base from which they 
deploy and that means that failing infrastructure weakens our 
ability to train, support, and ensure a high quality of life 
for our service members and their families.
    And with this in mind, the Fiscal 2019 Budget Request for 
MILCON and Family Housing represents a modest step forward. 
Total funding is up 4 percent over 2018--enacted levels, 
including unfunded requirements added by Congress, and Military 
Family Housing accounts are up 12 percent over the 2018--
enacted amount.
    But we need sustained and predictable funding moving 
forward. One or 2 years of investment will not dig us out of 
the hole that we are in that came about through years of 
neglect.
    We also need to make sure our MILCON investment, 
particularly overseas, reflects our national security strategy. 
Coming from Hawaii, I take a particular interest in the Asia 
Pacific Region where our commitment to our partners remains 
absolute and that's why I was surprised to see that this budget 
request is light on MILCON in the region, and so I look forward 
to hearing from our witnesses about how this request came 
together.
    We also have to make good on our promise to our troops and 
their families on the home front and invest in projects to 
improve quality of life. This includes facilities for our Guard 
and Reserve who have served as an operational reserve for 
nearly two decades and require parity with the Active 
component.
    I look forward to your testimony. Thank you.
    Senator Boozman. Thank you. Mr. Niemeyer, we welcome your 
testimony.


                 summary statement hon. lucian niemeyer


    Mr. Niemeyer. Thank you. I would like to submit my written 
testimony for the record and have a brief oral statement.
    I want to say thank you, Mr. Chairman, Ranking Member, 
Distinguished Members of the Subcommittee, for the opportunity 
to talk to you today about the President's Budget Request for 
Military Installations, Energy, and the Environment.
    I also want to thank personally Senator Moran for his 
support for the military and our veterans over the years, look 
forward to having that same support from Senator Boozman and 
really appreciate, look forward to working with the committee 
as we address the needs of our military and their families who 
are called to sacrifice so much on behalf of our country every 
day.
    We are extremely grateful to Congress for the recently-
enacted Bipartisan Budget Act of 2018, which begins the 
recovery from the significant impact of sequestration.
    We have a responsibility now to honor the trust of the 
American people by spending each defense dollar wisely. In 
order to do so, our investments are now guided by the 
President's National Security Strategy and the Secretary of 
Defense's National Defense Strategy, recently released, with 
both clearly articulate the threats and challenges we face as a 
nation.
    Our mission is clear. We must be prepared to defend the 
homeland, remain the preeminent military power in the world, 
and advance international order that promotes security and 
prosperity.
    The strategy confronts a stark reality that the homeland is 
no longer a sanctuary. The strategy requires increased adaptive 
and disbursed basing. It also requires the department to derive 
budget discipline and affordability in order to direct 
resources towards the highest unfunded war-fighter 
requirements.
    Our budget priorities today support the strategy by 
establishing a foundation to rebuild the agility, resilience, 
readiness, and lethality of our Armed Forces.
    With a clear understanding of the strategy, we have set 
forth the following objectives to confront some of the 
challenges posed by years of underfunded accounts.
    First, we are eliminating waste in the management of 
installations and we continue to advocate within the building 
for adequate funding to maintain our facilities.
    We're protecting installation and ranges from incompatible 
development around the country and improving the combat 
credibility of our test and training assets. We're enhancing 
our MG security. We are exploring new opportunities for third 
party partnerships. We are working with the contracting 
community to develop smarter contracts and to manage contracts 
smartly.
    We continue to provide for the welfare of our people and 
resources through unparalleled environmental stewardship and 
occupational safety programs and, so importantly, we continue 
to collaborate with the hundreds of dedicated defense 
communities around the country who support our bases every day 
and provide for the quality of life for our troops and their 
families.
    These guiding principles will allow us to apply the 
resources in this budget request to achieve real results. The 
requested level of $10.4 billion for Military Construction and 
Family Housing Programs makes significant progress in 
recapitalizing facilities, but this year's funding will not 
fully reverse the impacts of 6 years of sequestration.
    We currently have an unfunded maintenance backlog exceeding 
a $116 billion--23 percent of the department's facilities are 
in poor condition and another 9 percent are failing based on 
recent analysis.
    My frank assessment is that it may be too costly to buy 
ourselves out of this backlog. We must work to remove unneeded 
capacity in order to fund higher priorities.
    As noted in the National Defense Strategy, we continue to 
reduce excess infrastructure and assess our installations. For 
instance, we must ensure facilities that are sized for 100 
personnel actually have 100 personnel occupying or working in 
that facility.
    We also proposed increased efforts to demolish unneeded 
facilities. We are reducing leases in order to remove folks 
back on base.
    Our work will get us part of the way but we still need your 
support for a fair, objective, and transparent process for 
future base realignments and closures.
    These efforts will be enhanced by a careful evaluation of 
how and where we need to base new forces and new technologies. 
Bottom line, we must be able to transform from a Cold War 
basing strategy by realigning forces at the right locations to 
improve their readiness and lethality.
    We're also facing other challenges as well head on within 
the department. We're managing the impact of increased costs of 
labor and material resulting from adverse weather on our 
military construction projects.
    We are proactively improving MILCON project and contract 
management to deliver power projection projects on schedule and 
within budget.
    Given the cyber risks documented recently by the Department 
of Homeland Security, the department's Energy Programs are 
focused on power security for critical facilities.
    We appreciate this committee's support for the Energy 
Resiliency and Conservation Improvement Program to improve 
infrastructure security while still maintaining a payback for 
our projects.
    We're also urgently identifying resources to improve the 
cyber protection of our facility-related control systems.
    Our war-fighters also need access to unencumbered land, 
water, and air space to hone readiness and lethality without 
compromising health and safety. We are heavily engaged with 
other Federal agencies to provide larger and more realistic air 
and land ranges with less maneuver restrictions to better 
simulate battlefield and threats around the world. Our 
commitment is to provide combat-credible test and training 
capabilities.
    In all, Mr. Chairman, Ranking Member, we have both 
challenges and opportunities in support of our new National 
Defense Strategy. We have a determined sense of urgency to 
achieve results now, knowing each achievement deters aggression 
by our adversaries.
    We appreciate your continued support for our military and 
look forward to working with you on the committee to promote 
our nation's security.
    [The statement follows:]
            Prepared Statement of Honorable Lucian Niemeyer
                              introduction
    Chairman Boozman, Ranking Member Schatz, and distinguished members 
of the Subcommittee: Thank you for the opportunity to present the 
President's fiscal year 2019 budget request for the Department of 
Defense programs supporting energy, installations, and the environment. 
This is my first time appearing before you and I look forward to 
working with the committee to support the priorities of the Department 
and the quality of life for our military members and family members who 
are called to sacrifice so much for public service.
    First, thank you for your continued support for our mission. We are 
grateful to Congress and the American people for the recently-enacted 
Bipartisan Budget Act of 2018, which lifts the caps so our military can 
be resourced at a funding level that begins to reverse the effects of 
sequestration. The Administration sent Congress a proposed fiscal year 
2019 budget request of $716 billion for national security, $686 billion 
of which is for the Department of Defense. We have a responsibility now 
to honor the trust of the American people by spending each defense 
dollar wisely to address our most urgent priorities to build a more 
lethal, resilient, and rapidly innovating Joint Force.
    In order to so, we need a timely appropriation in fiscal year 2019 
to be fully effective. While the process of Continuing Resolutions 
instead of spending bills provides Congress with additional negotiating 
time, the price is paid in stress on the Department through a shortened 
period to execute contracts for combat capabilities and readiness 
requirements. Budgetary disruption and instability negatively impact 
the Department's ability to work efficiently and modernize rapidly.
    Earlier this year, the President released a National Security 
Strategy which guided the development of a National Defense Strategy to 
clearly articulate the threats and challenges our Nation faces around 
the world. The objectives of the Department are ``to be prepared to 
defend the homeland, remain the preeminent military power in the world, 
ensure the balances of power remain in our favor, and advance an 
international order that is most conducive to our security and 
prosperity.'' Our fiscal year 2019 budget priorities enable the 
Department to establish a foundation for rebuilding the U.S. military 
into a more capable, lethal, and ready Joint Force. Each military 
service has a distinctive readiness recovery plan and the increases are 
targeted to advance these plans to improve readiness and increase 
lethality.
    The National Defense Strategy acknowledges that great-power 
competition has reemerged as the central challenge to U.S. security and 
prosperity, demanding prioritization and hard strategic choices. ``The 
future Joint Force will have a modern, flexible, and tailored nuclear 
deterrent; decisive, globally-capable conventional forces; and 
competency in irregular warfare. The future force will be lethal and 
resilient in contested environments, disruptive to adversaries, and 
competent across the conflict spectrum.''
    The strategy confronts the stark reality that the homeland is no 
longer a sanctuary. America is a target, whether from terrorists 
seeking to attack our citizens; malicious cyber activity against 
personal, commercial, or government infrastructure; or political and 
information subversion. New threats to commercial and military uses of 
space are emerging, while increasing digital connectivity of all 
aspects of life, business, government, and military creates significant 
vulnerabilities. During conflict, attacks against our critical defense, 
government, and economic infrastructure must be anticipated and 
deterred.
    The strategy stresses forward force maneuver, resilient posture, 
and agile logistics. Investments over the next few years will 
prioritize ground, air, sea, and space forces that can deploy, survive, 
operate, maneuver, and regenerate in all domains while under attack. 
Our investments must facilitate the transition from large, centralized, 
unhardened infrastructure to smaller, dispersed, resilient, adaptive 
basing that includes active and passive defenses.
    Finally, the strategy requires each of us in the Department to 
drive budget discipline and affordability. Better management begins 
with effective financial stewardship. As noted in the National Defense 
Strategy, ``The Department will continue its plan to achieve full 
auditability of all its operations, improving its financial processes, 
systems, and tools to understand, manage, and improve cost. We will 
continue to leverage the scale of our operations to drive greater 
efficiency in procurement of materiel and services while pursuing 
opportunities to consolidate and streamline contracts in areas such as 
logistics, information technology, and support services. We will also 
continue efforts to reduce management overhead and the size of 
headquarters staff. We will reduce or eliminate duplicative 
organizations and systems for managing human resources, finance, health 
services, travel, and supplies. The Department will also work to reduce 
excess property and infrastructure, providing Congress with options for 
a Base Realignment and Closure.''
    Each mission within our energy, installations, and environmental 
portfolio is directly engaged in the successful execution of this 
strategy. The DoD representatives before you today provide warfighter 
capabilities through over 585,000 facilities on more than 500 bases, 
posts, camps, stations, yards, and centers around the world, with a 
replacement cost exceeding $1 trillion, not including the cost of the 
27 million acres of land that our installations occupy. We execute the 
construction of facilities to provide our Combatant Commanders in 
partnership with our Allies with basing adaptability and deployment 
flexibility.
    Our warfighters need reliable energy to carry out their missions, 
whether they are out in the field or on base. We spend over $12 billion 
annually on fuel and energy, not including investments to enhance the 
energy security of our critical facilities and assets in the 
Department. We are also working with other agencies in the 
Administration to support the President's goal to accelerate 
development of all energy sources in ways that are compatible with the 
preservation of military capabilities.
    Our warfighters need access to unencumbered land, water, and 
airspace to hone their readiness and lethality without compromising 
health and safety--we invest heavily in programs and achievements to 
secure access to ranges that support mission-essential activities. We 
are also heavily engaged with other Federal agencies to provide our 
warfighters with larger, and more realistic ranges with less maneuver 
restrictions to better simulate battlefields and threats around the 
world.
    The continued support of Congress, and in particular, this 
subcommittee, allow us to use the resources provided to enhance the 
agility, resilience, readiness, and lethality of our forces around the 
world.
    With a clear understanding of the Secretary's intent, we have set 
forth the following objectives to guide our efforts to carry out the 
strategy and to confront our challenges posed by years of underfunded 
facility and infrastructure accounts.

1.We are using every program and funding source available to us to 
    eliminate waste in DoD installations and infrastructure and 
    maintain what we need;

2.We continue to advocate for adequate funding for installation and 
    infrastructure accounts to meet mission requirements and to address 
    risks to safety and readiness;

3.We are working with other Federal agencies, States, and communities 
    to protect installations and ranges from incompatible development 
    and to enhance the combat credibility of our Nation's test and 
    training ranges;

4. We are implementing programs to ensure combat capability, missions, 
    and resiliency by enhancing the energy security of our forces and 
    assets;

5. We are exploring new opportunities for third party partnerships and 
    engaging with industry to determine best practices and innovative 
    solutions for our current challenges;

6. We are working with the military engineering and contracting 
    community to develop smarter contracts, and manage contracts 
    smartly;

7. We continue to provide for the safety and welfare of our people and 
    resources through unparalleled environmental stewardship and 
    occupational safety programs;

8. And last, but definitely not least, we are enhancing our 
    collaboration with the hundreds of dedicated defense communities 
    around the Nation supporting our bases and providing for the 
    quality of life for our troops and their families.

    We have a number of high priority issues to review today, including 
the ongoing improvement and recapitalization of DoD facilities, access 
to training lands, protecting the health of our force, and ensuring 
energy resiliency for both our expeditionary forces and installations.
   fiscal year 2019 budget request--military construction and family 
                                housing
    The President's fiscal year 2019 budget requests $10.5 billion for 
the Military Construction (MILCON) and Family Housing Appropriation--an 
increase of approximately $700 million from the fiscal year 2018 base 
budget request, inclusive of fiscal year 2018 budget amendments to 
support the Missile Defense Agency and hurricane recovery requests. 
This increase supports the Secretary of Defense's guidance. In addition 
to construction required to bed down new or changing missions,this 
funding will also be used to restore and modernize enduring facilities, 
acquire new facilities where needed, and eliminate those that are 
excess or obsolete.
    While the fiscal year 2019 request makes significant progress in 
recapitalizing facilities in poor and failing condition, the funding 
will not in one fiscal year fully reverse the impacts of 6 years of 
sequestration. Many of our facilities have degraded significantly from 
reduced investments in Military Construction, Facilities Sustainment 
and Restoration and Modernization. The Department currently has an 
unfunded backlog of deferred maintenance and repair (M&R) work 
exceeding $116 billion, and many of our facilities will require 
significant investment in the future. The stark reality is that it may 
be too costly to buy ourselves out of this backlog. The Department must 
ensure that its infrastructure is ideally sized to increase the 
lethality of U.S. forces while minimizing the cost of maintaining 
unneeded capacity, which otherwise diverts resources from critical 
readiness and modernization requirements.
    We are requesting $8.9 billion for military construction (excluding 
Overseas Contingency Operations funding) across the Services and 
defense agencies, which is the substantially higher than our previous 
budget submission. This represents a 5 percent increase from our fiscal 
year 2018 request, inclusive of budget amendment requests for a Missile 
Defense missile field expansion at Fort Greely, AK, and repairs related 
to the 2017 hurricane season. This request addresses requirements for 
construction at enduring installations stateside and overseas, and for 
specific programs such as the NATO Security Investment Program and the 
Energy Resilience and Conservation Investment Program. In addition, we 
are targeting MILCON funds in key areas to support the national defense 
strategy.

1. Delivery of power projection platforms: In support of the Secretary 
    of Defense's guidance that increased DoD funding will improve 
    readiness and increase warfighter lethality, the DoD Components 
    applied more than 66 percent of the MILCON budget request to 
    construct operational/training facilities ($3.5 billion) and 
    maintenance/production facilities ($1.4 billion).

2. Combatant Command Priorities: In support of the Secretary's priority 
    to enhance our relationship with our Allies while providing 
    adaptive basing opportunities for our warfighters, more than $1.1 
    billion is included in the President's Budget request ($291.1 
    million in the base and $828.4 million in the Overseas Contingency 
    Operations (OCO) request) to support Combatant Command priorities. 
    Within the OCO request, $700 million is for MILCON projects 
    supporting the European Deterrence Initiative to improve 
    infrastructure and facilities throughout the European theater to 
    provide our allies, partners, and potential adversaries a clear 
    indication of the United States' long- term commitment to Europe. 
    The improvements support military readiness in the region and 
    improve theater Joint Reception, Staging, Onward Movement, and 
    Integration capabilities.

3. Homeland Defense: The fiscal year 2019 budget request includes $182 
    million to support missile defense of the homeland, including $174 
    million for the second phase of the Long Range Discriminating Radar 
    System Complex at Clear AFS, Alaska, and $8 million for the 
    expansion of Missile Field #1 to support two additional ground 
    based interceptors at Fort

4. Greely, Alaska: We also have dedicated the bulk of our $150 million 
    Energy Resiliency and Conservation Improvement program (ERCIP) for 
    fiscal year 2019 to projects that will enhance the reliable 
    delivery of power to mission facilities. We believe this program is 
    a critical tool to quickly respond to emerging energy security 
    requirements and request the continued support by the committees 
    for full funding of this account.

    The Department is committed to protecting the quality of life for 
military personnel and their families by ensuring access to suitable, 
affordable Family and Unaccompanied Housing. The environment in which 
our forces and their families live has an impact on their ability to do 
their job, and on the Department's ability to recruit and retain. 
Quality of life--to include the physical condition of the facilities in 
which our service members and their families live and work and a safe, 
healthy environment around and within those facilities--is also 
critical to support personnel readiness for new and current missions 
and strategic initiatives worldwide.
    While the Department has privatized 99 percent (more than 200,000 
units) of our family housing in the United States, our fiscal year 2019 
Family Housing budget request includes $514 million to fund family 
housing construction at locations where privatization is not feasible 
or not authorized overseas. In addition, our fiscal year 2019 budget 
request includes $1.1 billion for operation and maintenance of 
government-owned and leased family housing worldwide, to include 
providing housing referral services to assist military members with 
their housing needs. This O&M budget request supports more than 34,000 
government-owned family housing units, most of which are on enduring 
bases in overseas locations, as well as more than 7,500 government-
leased family housing units where government-owned or privatized 
housing is unavailable. The requested funding will ensure that U.S. 
military personnel and their families continue to have suitable housing 
choices.
    The Department also continues to modernize Unaccompanied Personnel 
Housing to improve privacy and provide greater amenities. The fiscal 
year 2019 President's Budget request includes $245.8 million for 8 
construction and renovation projects, providing more than 1,690 new or 
replacement bed spaces that will improve living conditions for trainees 
and unaccompanied personnel.
    Our request also includes $1.7 million to support administration of 
the Military Housing Privatization Initiative (MHPI) program as 
prescribed by the Federal Credit Reform Act of 1990. This includes 
monitoring MHPI programmatic goals and performance, and risk associated 
with Federal credit assistance provided for MHPI projects (e.g., 
government direct loans and limited loan guarantees). The Department 
continues to work with our MHPI project owners to help ensure the long-
term viability of individual projects and the program as a whole. We 
are continually assessing the impact that changes to the Basic 
Allowance for Housing may have on project revenue, which covers project 
operating and maintenance expenses, funds debt payments, and finances 
the future housing revitalization and recapitalization necessary to 
provide continued high quality housing for military families and to 
ensure these projects remain viable throughout their 40-50 year 
lifespans.
                         special considerations
Cost of labor in a post-storm bid climate and impact on 2018 and 2019 
        execution
    The 2017 Atlantic hurricane season was one of the most destructive 
hurricane seasons on record, with over $1 billion in damage in to DoD 
facilities. The private sector rebuilding will take years and many 
billions of dollars while consuming a large portion of the U.S. 
construction market.
    As such, the Department's fiscal year 2019 MILCON budget request 
takes into account the impact on construction costs of a high demand 
for specialty craftsmen and material prices over the near- term. While 
the ongoing recovery from last summer's hurricane damage has tightened 
construction markets and driven up construction prices in the most 
impacted areas, the Department judges the impacts will last through 
October 2018, barring a repeat of last summer. As such, we plan on 
using prior-year bid savings from other MILCON projects to absorb 
potential bid spikes in fiscal year 2018 in order to avoid delays in 
the award of critical warfighting requirements. We would appreciate a 
discussion with the committees prior to a decision to rescind funds 
from prior-year MILCON accounts which could threaten our ability to 
award fiscal year 2018 priority projects. We do not anticipate needing 
to adjust fiscal year 2019 MILCON project cost estimates in the 
affected areas to reflect spikes in construction prices.
Actions planned to mitigate contract cost increases and time delays
    We have undertaken a proactive assessment of recent challenges in 
MILCON project delivery and program management to improve our 
performance delivering MILCON projects on schedule and within budget. 
The Department is implementing reforms in a number of key areas, to 
include: improving identification of project requirements; enhancing 
collaboration between resource sponsors, end users, and construction 
agents to ensure projects meet mission requirements within budget 
constraints; selecting the best engineering and acquisition strategy to 
cost-effectively meet mission requirements; identifying risk mitigation 
measures before cost or schedule changes adversely impact the mission; 
and increasing awareness and accountability at all levels of management 
and performance as problems arise. The Department is also consulting 
with our industry partners to identify commercial best practices to 
lower costs, save time, measure performance differently, and improve 
project quality in support of the warfighter.
Further challenges to incremental funding of military construction 
        projects
    The Administration and Congress have competing interests on an 
incremental funding policy for large MILCON projects. Congressional 
decisions to reallocate incremental appropriations for a MILCON project 
results in the need for DoD to defer priorities late in the budgeting 
cycle in subsequent years in order to include remaining increments in 
the budget request. Further Congressional incrementation may result in 
delays to project delivery of critical warfighter requirements.
              facilities sustainment and recapitalization
    In addition to MILCON, the Department invests significant funds to 
maintain and repair our existing facilities. Sustainment funding 
represents the Department's single most important investment in 
preserving the condition of its facilities. It includes regularly 
scheduled maintenance and repair or replacement of facility 
components--the periodic, predictable investments that should be made 
across the service life of a facility to slow its deterioration, save 
resources over the long term, maintain safety, optimize facility 
performance across its lifecycle, and help improve the productivity and 
quality of life of our personnel.
    These activities have endured funding constraints under the Budget 
Control Act, forcing Defense Components to accept significant risk in 
facilities sustainment and recapitalization. Recognizing this, the 
Military Departments increased Facility Sustainment commitments in the 
fiscal year 2019 budget request of $9.1 billion, a 6.3 percent funding 
increase compared to the Department's fiscal year 2018 budget request.
    In addition, Restoration and Modernization funding is used to 
perform total facility renovations and critical repairs to ensure the 
facility can support assigned missions. Our fiscal year 2019 budget 
request includes $2.8 billion of O&M funding for recapitalization. The 
combined facility sustainment and recapitalization funding of $11.9 
billion, a slight decrease the fiscal year 2018 request, still reflects 
an acceptance of significant risk in DoD facilities.
    As a result of limited investments in previous budgets for 
facilities sustainment and recapitalization, 23 percent of the 
Department's facility inventory is in ``poor'' condition [Facility 
Condition Index (FCI) between 60 and 79 percent] and another 9 percent 
is in ``failing'' condition (FCI below 60 percent) based on recent 
facility condition assessment data. This will ultimately result in DoD 
facing larger bills in the out-years to restore or replace facilities 
that deteriorate prematurely.
    Previous budgets also have limited investment for targeted 
demolition to eliminate obsolete, inefficient, and underutilized 
support infrastructure. Without a new Base Realignment and Closure 
round, DoD has largely been forced to rely on routine demolition or 
renovation of buildings as part of MILCON projects in order to right 
size its facility inventory. The Department dedicated some of its 
additional fiscal year 2019 resources to demolish more unneeded 
facilities. The fiscal year 2019 budget request includes $442 million 
of O&M funding specifically for demolition or conversion of existing 
facilities and $65.4 million for MILCON funding to support demolition 
of assets in conjunction with new construction. In total, almost 30 
million square feet of building space will be removed or replaced.
                   environmental and safety programs
    Restoring military readiness requires that we maintain access to 
training lands and protect the health of our force. The Department's 
environmental budget accomplishes these objectives through activities 
ranging from managing critical habitat and avoiding training 
restrictions to addressing drinking water health advisories and making 
the best use of limited cleanup dollars. At the same time, we manage a 
$27 billion (and growing) environmental liability, the second largest 
DoD liability, while sustaining our reputation as the Nation's premier 
steward of natural resources and cultural assets. The President's 
fiscal year 2019 Budget requests $3.4 billion for environmental 
programs, which is comparable to the fiscal year 2018 request, to 
continue our efforts in these areas.
    We are requesting $1.3 billion to continue cleanup efforts at the 
remaining Installation Restoration Program (IRP--focused on cleanup of 
hazardous substances, pollutants, and contaminants) and Military 
Munitions Response Program (MMRP--focused on the removal of unexploded 
ordnance and discarded munitions) sites. This includes $1.1 billion for 
``Environmental Restoration,'' which encompasses active installations 
and Formerly Used Defense Sites (FUDS--sites that DoD transferred to 
other Federal agencies, States, local governments, or private 
landowners before October 17, 1986). The remaining $245 million is for 
``BRAC Environmental.''
    Our focus remains on continuous improvement in the restoration 
program: minimizing overhead, adopting new technologies to reduce cost 
and accelerate cleanup, and refining and standardizing our cost 
estimating. We have improved our relationships with State regulators 
through increased dialogue, which reduces the number of formal disputes 
over cleanup levels and allows us to implement cleanup activities in a 
timelier manner. All of these initiatives help ensure that we make the 
best use of our available resources to complete cleanup.

                                     Table 5: Progress Towards Cleanup Goals
Goal: Achieve Response Complete at 90 percent and 95 percent of Active and BRAC IRP and MMRP sites, and FUDS IRP
                          sites, by fiscal year 2018 and fiscal year 2021, respectively
----------------------------------------------------------------------------------------------------------------
                                     Status as of the end of   Projected status at the   Projected status at the
                                        fiscal year 2016       end of fiscal year 2018   end of fiscal year 2021
----------------------------------------------------------------------------------------------------------------
Army..............................                      91%                       92%                       96%
Navy..............................                       82                        83                        89
Air Force.........................                       83                        85                        91
DLA...............................                       86                        88                        96
FUDS..............................                       84                        86                        93
    Total.........................                       86                        88                        93
----------------------------------------------------------------------------------------------------------------

    By the end of 2017, the Department, in cooperation with State 
agencies and the Environmental Protection Agency, completed cleanup 
activities at 86 percent of Active and BRAC IRP and MMRP sites, and 
FUDS IRP sites, and is now monitoring the results. During fiscal year 
2017 alone, the Department completed cleanup at over 500 sites. Of the 
roughly 39,800 restoration sites, almost 33,200 are now in monitoring 
status or have completed cleanup.
    In addition, DoD has made significant progress in the cleanup of 
our FUDS sites, completing 84 percent of the IRP sites. Despite this 
progress, 1,700 of the over 5,100 FUDS sites still need to be 
addressed, many of which are MMRP sites. The Department is evaluating 
opportunities, such as partnering with landowners at our FUDS sites, to 
expedite cleanup and make these lands available for development sooner.
    While DoD is committed to cleaning up all the remaining sites in a 
timely manner, many of these sites present complex challenges. New and 
changing standards require DoD to reprioritize or reopen previous 
remediation decisions which delays progress. Additionally, some sites 
have no feasible solution to clean up the contamination, and as a 
result, the Department is making significant investments in 
environmental technology to identify new potential remediation methods.
Environmental Technology
    A key part of DoD's approach to meeting its environmental 
obligations and improving its performance is the pursuit of advances in 
science and technology. The Department has a long record of success 
developing innovative environmental technologies and quickly 
transferring them from the laboratory to actual use on remediation 
sites, installations, ranges, depots, and other industrial facilities. 
These same technologies are also now widely used at non-Defense sites 
helping the nation as a whole.
    While the fiscal year 2019 budget request for Environmental 
Technology overall is $172 million, our core efforts are conducted and 
coordinated through two key programs--the Strategic Environmental 
Research and Development Program (SERDP--focused on basic and applied 
research) and the Environmental Security Technology Certification 
Program (ESTCP--focused on validating more mature technologies to 
transition them to widespread use). The fiscal year 2019 budget request 
includes $77 million for SERDP and $24 million for ESTCP for 
environmental technology demonstrations, with an additional $16 million 
requested specifically for energy technology demonstrations.
    These programs have already achieved demonstrable results and have 
the potential to increase training land availability by developing more 
effective management strategies for installation managers, to reduce 
costs by developing new ways of treating groundwater contamination, and 
to reduce the life-cycle costs of multiple weapons systems. In the area 
of Environmental Restoration, we are launching an aggressive initiative 
to develop more cost-effective treatment options for other newly-
identified contaminants in addition to addressing Perflurooctane 
Sulfonate (PFOS) and Perfluorooctanoic Acid (PFOA). In the critical 
area of installation energy, we are focused on proving technology and 
solutions that cost-effectively improve the energy security of our 
installations and that protect our energy assets and facilities from 
cyber attacks.
Environmental Conservation and Compatible Development
    The Department continues to preserve access to the land, water, and 
airspace needed to support our mission. As training, testing, and 
operational activities expand and new weapons systems are introduced, 
access and use of ranges becomes even more important. The fiscal year 
2018 budget request for Conservation is $419 million. The Department 
will invest these funds to maximize our flexibility to use lands for 
military purposes, as well as addressing incompatible land uses beyond 
our fence lines.
    The Department's lands and waters are vital to readiness, but also 
support a diverse array of fish and wildlife species, including over 
400 that are federally protected under the Endangered Species Act 
(ESA). Managing for healthy and resilient natural landscapes provides 
the conditions necessary for mission-essential activities, such as 
reducing fire risks, avoiding wildlife conflicts, and improving range 
and training area conditions.
    Species endangerment and habitat degradation can and does have 
negative impacts on the mission through regulatory protections. In 
recent years, there has also been a marked increase in the number 
species being petitioned and evaluated for listing under the ESA. We 
have initiated a TIGER TEAM with the Department of the Interior to 
develop proactive, collaborative conservation initiatives to help 
prevent additional species of concern to the Department from being 
listed under the ESA, and implementing conservation actions to 
facilitate species recovery and de-listing. As a result of our 
management, research, and coordination efforts, the Department has 
regained access to important training lands. For example, our continued 
cooperation with the U.S. Fish and Wildlife Service (USFWS) and other 
partners for the conservation of the black-capped vireo at Fort Hood 
has significantly reduced training restrictions on 73,000 acres, and 
the species is currently being evaluated for de-listing.
    Similarly, working with partners in the USFWS and Bureau of Land 
Management (BLM) in California, the US Marine Corps translocated over 
1,000 endangered desert tortoises from newly withdrawn lands at Marine 
Corps Air Ground Combat Center (MCAGCC), Twentynine Palms. This 
translocation opened over 160,000 acres for training, filling a 
critical need to support large- scale Marine Expeditionary Battalion 
(MEB) exercises. Ongoing management and monitoring efforts will help 
sustain military readiness.
    We have also realized great success and mission benefits from the 
unique regulatory provisions within the ESA that exclude military lands 
from critical habitat designations. Building on this success, we will 
continue to work with our partners at the USFWS and National Marine 
Fisheries Service, as well as other Federal, State, and non-
governmental partners, to develop new and innovative regulatory 
approaches that streamline processes and provide greater mission 
flexibility. We will also be working to develop more landscape-scale 
initiatives to better capitalize on both our on-installation 
conservation programs and our off-installation conservation 
partnerships through the Readiness and Environmental Protection 
Integration (REPI) Program.
Readiness and Environmental Protection Integration Program
    REPI investments protect training, testing, and operational assets 
of the Department. As training, testing, and operational activities 
increase and new weapons systems are introduced, the ability to work 
with Federal, State, local and private partners to promote compatible 
development, relieve regulatory restrictions, and leverage resources 
that sustain critical military capabilities, becomes even more 
important. Investing in and taking advantage of current opportunities 
for innovative collaboration is paramount to securing the operational 
viability of local installations and ranges. REPI is able to directly 
leverage the Department's investments at approximately one-to-one with 
those of our partners, effectively ensuring compatible land uses around 
our installations for half the price. Through REPI's partnering 
efforts, we can continue to support the warfighter, provide value to 
the taxpayer, and enhance military readiness and capabilities.
    To enable DoD to sustain its national defense mission and to ensure 
military installations do not become refuges of last resort for 
threatened, endangered, or at-risk species, the Department has 
developed an approach that supports land protection beyond installation 
boundaries. Under this approach, DoD engages with other governmental 
and non-governmental partners who work with private landowners, to 
develop initiatives and agreements for protecting properties for the 
purposes of avoiding or mitigating regulatory restrictions on training, 
testing, and operations on DoD lands. These efforts ease the on-
installation species management burden and reduce the possibility of 
restricted activities, ultimately providing more flexibility for 
commanders to execute their missions.
    A recent, innovative example of this approach is the Department's 
Gopher Tortoise Conservation Crediting Strategy, which the Department, 
the United States Fish and Wildlife Service, and three State agencies 
finalized in March of 2017. This Strategy seeks to address the 
conservation of the gopher tortoise, a candidate species for protection 
under the Endangered Species Act (ESA), thereby providing the 
regulatory predictability that commanders require to effectively 
operate at installations and ranges throughout the southeast. Through 
the 2018 REPI Challenge, a competitive funding process that seeks to 
cultivate innovative approaches to sustaining military capabilities, 
the Department seeks to fund similar species crediting strategies that 
will help reduce existing or future regulatory restrictions to testing, 
training, and operational activities.
    Within the $424 million for Conservation, $75 million is directed 
to the REPI Program. The REPI Program is a cost-effective tool to 
protect the nation's existing training, testing, and operational 
capabilities at a time of decreasing resources. In the last 15 years, 
REPI partnerships have protected more than 510,000 acres of land around 
93 installations in 31 States. In addition to the tangible benefits of 
preserving DoD's existing training, testing, and operational assets, 
these efforts have resulted in significant contributions to the 
economic health and recreational opportunities for local communities.
    In addition, DoD, along with the Departments of the Interior and 
Agriculture, continues to advance the Sentinel Landscapes Partnership 
to protect large landscapes where conservation, working lands, and 
national defense interests converge--places defined as Sentinel 
Landscapes. Established in 2013, the Sentinel Landscapes Partnership 
further strengthens interagency coordination and provides taxpayers 
with the greatest leverage of their funds by aligning Federal programs 
to advance the mutually-beneficial goals of each agency.
    Since the initiation of the Partnership, agencies from the three 
Departments have designated seven locations as Sentinel Landscapes. 
Some of the military's most important installations anchor these 
Landscapes: Joint Base Lewis-McChord in Washington; Fort Huachuca in 
Arizona; Naval Air Station (NAS) Patuxent River and the Atlantic Test 
Ranges in Maryland (Middle Chesapeake Sentinel Landscape); Avon Park 
Air Force Range in Florida; Camp Ripley in Minnesota; and two consortia 
of installations in Eastern North Carolina and Georgia. Partnerships at 
each of these locations are collaborating to preserve, enhance, and 
protect habitat and vital working lands near military installations in 
order to reduce, prevent, or eliminate military test, training, and 
operational restrictions due to incompatible development. At Joint Base 
Lewis-McChord, Fort Huachuca, and Middle Chesapeake Sentinel Landscapes 
combined, partners have invested more than $86 million between fiscal 
years 2013 and 2016 to advance each location's specific military 
mission and resource conservation goals. Over $17 million of the total 
investment during this period has come from State and local 
governments, whose support for the mission of the Partnership has 
helped to ensure its success.
    In addition to investments made in these areas, partners at each of 
the Sentinel Landscapes are working collaboratively on innovative 
approaches to better leverage existing efforts to preserve working 
lands and promote compatible development. In the Middle Chesapeake and 
Avon Park Air Force Range Sentinel Landscapes, partners are working to 
improve efforts to match REPI funds with funding from the other 
Departments by aligning or merging agency requirements for the 
acquisition and monitoring of easements and land interests. This 
unprecedented level of interagency cooperation will enable the most 
efficient use of taxpayer funding to protect military capabilities and 
sustain readiness.
                 department of defense energy programs
    Unlike the Department's MILCON and Environmental Remediation 
programs, where the budget request includes specific line items, our 
energy programs are subsumed across other accounts, yet are critical to 
our support for military readiness, resiliency, and agility.
        operational energy -- unleash us from the tether of fuel
    Operational energy is the energy required for training, moving, and 
sustaining military forces and weapons platforms for military 
operations. While energy is an essential component of our warfighting 
capability, longer operating distances, remote and austere geography, 
and anti- access/area denial threats are challenging the Department's 
ability to assure the delivery of fuel. As the ability to deliver 
energy is placed at risk, so too is the Department's ability to deploy 
and sustain forces around the globe.
    Based on his experience in Iraq, then Lt Gen James Mattis, Director 
of Marine Corps Combat Development Command, directed researchers in 
2005 to identify technological and operational improvements that would 
``unleash us from the tether of fuel.'' The operational energy 
investments in the fiscal year 2019 budget request are focused on 
reducing that ``tether'' and increasing the capability of our forces on 
land, air, and sea.
    The fiscal year 2019 President's Budget supports a broad set of 
investments to ensure lethality in contested environments through 
resilient and agile logistics. The Department is investing over$2.8 
billion to upgrade and procure new equipment, improve propulsion, adapt 
plans, concepts, and wargames to account for increasing risks to 
logistics and sustainment, and enhance how the Department considers 
energy in developing new capabilities. As the Department responds to 
changing threats in Europe, the Indo-Pacific, and the Middle East, 
these initiatives are increasing capability and decreasing risks for 
warfighters deployed around the globe.
Significant initiatives include:

  --Operational Energy Capability Improvement Fund (OECIF): The 
        Department is requesting $40.6 million in RDT&E funding to 
        support operational energy research programs that improve 
        military effectiveness. Ongoing initiatives include efforts to 
        improve the fuel economy of our tactical vehicle fleets, 
        increase the energy performance of unmanned systems, enhance 
        power and thermal management for high pulse power weapons, and 
        wirelessly transmitting energy in the far field. Our new starts 
        this year include assessments of operational energy science and 
        technology gaps in meeting warfighter requirements over the 
        near-, mid-, and far-term.

  --Operational Risk in Wargames: To better plan for the impact of 
        operational energy in contingencies, we are actively engaged in 
        supporting war gaming and exercises conducted by the 
        Department. Recently, my office participated the Air Force's 
        Global Engagement wargame, the Army's Deep Futures 17 wargame, 
        as well as the U.S. Pacific Command

  --Logistics Wargame: Operational Energy staff continuously 
        participate in the planning and execution of the games, as well 
        as the assessment of game results. With the integration of 
        realistic constraints to logistics capacity and threats to our 
        fuel storage and distribution, our efforts will improve 
        Department decisionmaking in operation plans, concept and 
        capability development, and program investments.

  --Direct Support to the Warfighter: In coordination with the 
        Combatant Commands and the Military Services, my office works 
        closely with the warfighter to enhance lethality and readiness. 
        We invested $4 million in 2017 to adapt Service training and 
        education programs in each of the Services to increase 
        operational reach and readiness. We have developed a repository 
        to capture operational energy lessons learned and are using the 
        information we have gleaned to influence warfighters on the 
        effects of their energy decisions on risk, reach, and the 
        readiness of the force. Finally, my team works with AFRICOM, 
        EUCOM, and CENTCOM to decrease risk to operations by leading 
        power assessments resulting in improved power reliability and 
        reduced fuel consumption, which has direct effects on the 
        reduction of vulnerable logistics convoys while providing more 
        operational capability to commanders on the ground.
                          installation energy
    Installation energy is the energy used to power our 500 plus 
permanent installations here in the U.S and overseas, including the 
fuel used in our 160,000 non-tactical fleet vehicles. Our installation 
energy bill remains our single largest base operating cost. In fiscal 
year 2017, we spent $3.5 billion to heat, cool, and provide electricity 
to our facilities. To reduce this cost, the Department is pursuing 
energy efficiencies through building improvements, new construction, 
and third party financed investments.
    The Department of Defense has identified a top priority to ensure 
that our military capabilities and our ability to protect our Nation's 
interests are assured through the delivery of reliable and resilient 
power. Given recent Federal reports on the vulnerability of our 
national commercial electrical grid to emerging threats, we have 
reviewed the scope of our efforts to concentrate resources on projects 
which will enhance the resilience of our defense critical and task 
critical assets. These efforts will include the continued development 
of distributed energy sources which can be used to power critical 
missions regardless of the condition of the commercial grid.
    The Department's fiscal year 2019 budget request includes 
approximately $726 million for investments in energy resilience and 
energy conservation, most of which are directed to existing buildings.
    This includes $576 million in the Military Components' Operations 
and Maintenance accounts for sustainment and recapitalization projects, 
which generally involve retrofits to install improved lighting, high-
efficiency HVAC systems, double-pane windows, energy management control 
systems, and new roofs. The remainder ($150 million) is for the Energy 
Resilience and Conservation Investment Program (ERCIP), a MILCON 
account which funds projects that improve energy resilience and 
security, save energy and water, reduce DoD's energy costs, and most 
importantly, contribute to mission assurance.
Energy Resilience and Conservation Investment Program
    Secure access to energy resources on our installations is critical 
to the execution of the DoD mission. The interdependent and vulnerable 
nature of existing electric power grids supporting our installations 
places risk on our mission capabilities and installation security as 
well as our power projection ability and support to global operations.
    ERCIP is one of the Department's key tools to enable more robust 
energy security. DoD is requesting $150 million for this program for 
fiscal year 2019, including $113 million for energy resilience projects 
and $37 million for energy conservation projects. These projects 
include two microgrid projects, one at Schriever AFB, CO and one at 
Camp Williams, UT. In addition, the portfolio includes a project at 
Fort Sill, OK, to construct a new underground electric service 
connection between an existing substation and a newly constructed 
substation. This project will support critical missions of our Field 
and Air Defense Artillery Brigades by eliminating the single point of 
failure at Fort Sill and providing complete redundancy to critical 
missions in the event of a power disruption caused by a natural 
disaster, physical attack, or other event.
    These resilience projects have a combined Savings to Investment 
Ratio (SIR) of 2.26. In other words, every dollar we invest in ERCIP, 
generates more than two dollars in savings, demonstrating that, in most 
cases, energy resilience does not have to come at a premium price.
Energy Resilience Planning and Facilities Energy Management
    In addition to investing in energy resilience projects, the 
Department is committed to real-world scenario-based planning, 
including using the results of the North American Reliability 
Corporation (NERC)-sponsored GridEx and our installation reliability 
exercises to drive more sophisticated internal testing and investment 
for resilient infrastructure. This improves our installations' security 
posture, increases our planning effectiveness, and ensures our ability 
to continue critical missions in the face of grid power disruptions 
that could occur due to weather events and/or direct physical or cyber 
attack. We are also working with the Departments of Energy and Homeland 
Security to pinpoint the energy needs of critical defense assets and 
national infrastructure in order to maximize the use of reliable 
electricity delivered through our national power administrations.
    Leveraging strong energy sector relationships of the Critical 
Infrastructure Partnership Advisory Council, DoD is engaging with 
industry and Federal interagency stakeholders to identify opportunities 
to enhance the Department's mission assurance through outside-the-
fencesolutions. Inside the installation fence, DoD is actively 
improving data sharing between mission operators and installation 
owners to use all available technologies that produce energy resilience 
solutions prioritized by mission, informed by metrics, and validated by 
results. Furthermore, the Department is working with the Department of 
Energy to support the early-stage research and development of advanced 
reactor technologies, including small modular reactors and very small 
modular reactors. DoD envisions potential future use for very small 
reactors at remote operating bases and independent strategic sites 
where an assured source of power aside from the commercial power grid 
is critical for the delivery of national security missions and 
capabilities.
    Energy resilience includes cybersecurity of Facility-Related 
Control Systems (FRCS). FRCS supporting Defense Critical Infrastructure 
(DCI) are essential to perform warfighting capabilities, execute 
critical missions, and project power; therefore they are actively 
threatened by adversaries and are highly vulnerable to cyber security 
attacks and failures. Malware such as Stuxnet, BlackEnergy, and 
Crashoverride specifically targeted FRCS and the Ukraine electric grid 
attack demonstrated the capability to cut power to mission-critical 
facilities. Risk to missions increase as more devices are connected to 
networks without appropriate security protections, and poor cyber 
hygiene persists by system operators without cybersecurity skills.
    To build a FRCS defense posture, the Department recently began 
developing FRCS cybersecurity plans to account for the capabilities and 
resources required to implement cyber security controls on its highest 
prioritized assets and systems. We will continue to work with the 
Department's Chief Information Officer and Principal Cyber Advisor 
toward solutions and resources ensuring FRCS are defensible, 
survivable, and resilient to operate and sustain critical functions in 
a cyber-contested environment.
    The Military Departments are continuing to implement updated energy 
resilience policies, which requires plans for energy disruptions and 
the capability to ensure available, reliable, high-quality, and cyber 
secure power to continuously accomplish our missions from our 
installations and facilities. This includes prioritizing installation 
missions, conducting assessments, and planning and programming energy 
projects that reduce mission risk by improving energy resilience and 
security. My office also issued an Energy Resilience: Operations, 
Maintenance and Testing Strategy and Implementation Guide last year to 
provide installation commanders, mission operators, and energy managers 
procedures to ensure that energy generation systems, infrastructure, 
equipment, and fuel are available and reliable to support critical 
mission operations on military installations. We will be releasing 
further guidance this year that enables the Department to identify and 
align critical mission operations with critical energy requirements and 
effectively plan outage scenarios, which directly translates energy 
resilience metrics into tangible improvements in power and fuel 
resiliency for mission assurance.
    The Department's energy efficiency efforts not only contribute to 
energy resilience by reducing critical loads, but also by lowering our 
base operating costs, which frees up funds for the warfighter. Since 
fiscal year 2005, the Department has continued to reduce facility 
energy usage, freeing up approximately $5.4 billion for higher 
priorities. To further improve facilities energy management, my office 
issued a policy to require the Military Departments to develop 
Installation Energy Plans (IEP) by the end of fiscal year 2019. These 
plans directly enable installations to plan and carry out investments 
to enhance mission assurance for critical facilities.
Smart Financing to Promote Energy Resilience
    The Department has broad alternative financing authorities that can 
be leveraged to implement installation energy initiatives that assist 
in improving energy resilience and mission assurance at our 
installations at lower cost to the taxpayer. These authorities allow us 
to use performance- based contracts, power purchase agreements, 
enhanced use leases, and utilities privatization, among others. Using 
Energy Savings Performance Contracts (ESPCs) and Utility Energy Service 
Contracts (UESCs), private energy firms or utility companies make 
energy upgrades at our installations and are paid back over time using 
utility bill savings. Since December 2011, the Department has awarded 
$2.6 billion in performance-based contracts, which are expected to save 
DoD over $4 billion across the contract terms, which are then used to 
pay for energy improvement.
    Another way the Department leverages its financing authorities is 
non-Federal financing for large-scale distributed energy projects. This 
minimizes DoD's capital investment by leveraging smarter contracts that 
incentivize industry to fund resilient infrastructure improvements. 
When the business case supports it, the Department is pursuing 
distributed energy projects with micro- grid-ready applications that 
enable the provision of continuous power in the event of a disruption. 
For example, the Army leased land to Hawaiian Electric Company to 
construct, own and operate an on-site 50 megawatt (MW) multi-fuel/
biofuel generation plant at Schofield Barracks, Hawaii. The on-site 
generation system will enhance the resilience of the Oahu electrical 
grid and can provide Schofield Barracks, Field Station Kunia, and 
Wheeler Army Air Field with one hundred percent of their electrical 
power needs in the event of a power grid disruption. Additionally, at 
the Pacific Missile Range Facility in Kauai, the Navy signed an 
enhanced-use lease with a developer to construct an on-site solar plus 
battery energy storage system that includes infrastructure and 
contractual rights that allow the Navy to greatly improve power quality 
and reduce costs during normal operations. During a power disruption, 
this project will operate as a micro-grid to provide a reliable and 
continuous source of backup power, directly reducing risk to our 
mission.
    To maximize opportunities for these types of smart contracts, the 
Department is standardizing project information and streamlining 
processes to spur investment by the financial services industry. DoD is 
initiating a study to accelerate adoption of energy resilience projects 
through a shared risk rating, which incentivizes third parties to seek 
opportunities that support DoD mission, retains the Department's 
control over its assets and operations, and improves facility contract 
execution. This will enable low-cost, high-value contracts that make 
prudent use of resources and ensure our military's capability, 
lethality, and readiness.
    high interest programs supporting the national defense strategy
                  base realignment and closure (brac)
    As stated in the National Defense Strategy, the Department is 
working to reduce excess property and infrastructure. To achieve 
greater performance and affordability, we must ensure that our basing 
infrastructure is ideally sized to increase the lethality of our forces 
while minimizing the cost of maintaining unneeded capacity, which 
diverts resources from critical readiness and modernization 
requirements. These efforts will be enhanced by a comprehensive 
enterprise review of how and where we base new forces and capabilities 
in support of the National Defense Strategy. Emerging technologies such 
as hypersonic systems, autonomous vehicles, and cyber forces may 
require new basing concepts. Bases may also need to be assessed in 
order to optimize the training and deployment of directed energy 
programs, electronic warfare, and artificial intelligence systems. In 
lieu of another request for legislation in fiscal year 2019 to 
authorize an additional Base Realignment and Closure (BRAC) round, we 
will review our facilities, to include facility usage optimization 
review to ensure we have a better accounting of excess infrastructure. 
We also have proposed for fiscal year 2019 increased efforts to 
demolish unneeded or obsolete facilities over the course of this year. 
Our collective efforts will allow us to provide Congress with fair, 
objective, and transparent options for future base realignments and 
closures, which maximize Department resources while also addressing any 
outstanding Congressional concerns.
                      business operations reforms
    In the weeks and months ahead we will relentlessly pursue a host of 
initiatives that directly contribute to the SecDef's priorities of 
building a more lethal force, strengthening alliances and attracting 
new partners, as well as reforming the Department for greater 
performance and affordability. In particular, the Deputy Secretary of 
Defense established the Reform Management Group to lead the 
Department's business operations reform effort. This group, which is 
led by the Chief Management Officer in close coordination with the 
Director of Cost Assessment and Program Evaluation, consists of nine 
cross-functional teams, including information technology, human 
resources, community services, contracts, real property, testing and 
evaluation, medical services, logistics and supply, and financial 
management. They are led by subject matter experts within their 
respective fields and call upon their experience and relationships 
within their communities to generate ideas for both immediate and 
longer term business process improvements.
    My Principal Deputy leads the real property management reform team, 
which is identifying ``best business practices'' throughout the 
Department and across the entire Federal Government that can be applied 
toward increasing resource effectiveness and reducing operating costs 
on an enterprise-wide basis. Additionally, we are working with local 
municipalities outside the gates of our military installations to gain 
insights on the ``Smart Cities'' movement sweeping the nation that will 
enable us to expand the use of public-private and public-public 
partnerships. Further, we are engaging the private sector to identify 
and, where feasible, adopt ``corporate best practices'' to enhance the 
mission assurance of our installations made all the more resilient 
through the application of innovative solutions provided by emerging 
technologies and bolstered by the Internet of Things (IoT).
    Though the individual teams are responsible for creating 
opportunities to increase effectiveness, efficiency, and performance 
throughout the Department of Defense, leadership is responsible for 
overseeing the execution of these reforms. As we move forward, the 
Department will be grading the reform efforts based on evolving 
performance and productivity measures, benchmarked from private sector 
best practices, with an enduring focus on increased lethality and 
improved readiness.
  protecting and enhancing our training and test range infrastructure
    In addition to test and training lands owned by the Department of 
Defense, we have a close, cooperative relationship with the Department 
of the Interior to manage public lands and off shore areas for use by 
DoD. This relationship is crucial to our ability to protect and enhance 
our test and training capabilities across the country. From time to 
time, we also have a recurring requirement to renew public land 
withdrawals in order to continue military operations. This withdrawal 
renewal process can take up to 7 years, significant resources, and 
extensive man- hours to undertake an exhaustive environmental review 
and other studies for a land use which has been in place for decades 
and is still determined to be of critical use by DoD. We also have been 
identifying locations where the Department would like to expand ranges, 
which will significantly improve the combat credibility of our test and 
training ranges by offering opportunities for more realistic maneuver, 
attack, and opposing force capabilities. Offering our combatant forces 
a combined-arms environment more closely resembling what may be 
encountered in a contingency against a peer competitor is a vital 
element to increasing the lethality and readiness of our forces. As 
such, we are actively engaged with the Department of the Interior on 
improvements to streamline the review process, thereby reducing the 
time and resources required for execution.
addressing perfluorooctane sulfonate (pfos) and perfluorooctanoic acid 
                                 (pfoa)
    The investigation and cleanup of PFOS and PFOA in drinking water 
where previous Department of Defense activities are determined to be 
the source of the contamination continues to be a top priority for my 
office. PFOS and PFOA are part of a class of man-made chemicals used in 
many industrial and consumer products to make products resist heat, 
stains, water, and grease. In the 1970s, DoD began using aqueous film 
forming foam (AFFF), which quickly extinguishes petroleum-based fires, 
but contains PFOS, and in some cases PFOA.
    On May 19, 2016, the U.S. Environmental Protection Agency (EPA) 
issued Lifetime Health Advisories (LHAs) recommending the individual or 
combined levels of PFOS and PFOA in drinking water be below 70 parts 
per trillion.
    In response, the Department began testing DoD drinking water 
systems to identify drinking water that exceeded EPA's LHA. DoD has 
tested all 524 DoD-owned drinking water systems worldwide. As of August 
31, 2017, twenty-four DoD drinking water systems tested above the LHA 
and DoD has followed the EPA advisory recommendations, to include 
providing consumers bottled water or additional treatment of water. 
Where DoD purchases drinking water, we identified 12 drinking water 
systems where the results are above the EPA LHA level. These 
installations are working with the drinking water supplier to taking 
appropriate actions (such as providing bottled water) to ensure all 
personnel receive safe drinking water.
    Although the EPA LHA level is only guidance under the Safe Drinking 
Water Act (SDWA) and is not an enforceable drinking water standard, DoD 
considers the EPA's LHA toxicity information when assessing risk to 
human health under its cleanup program. DoD followed a comprehensive 
approach to identify installations where we have stored or used AFFF 
containing PFOS or PFOA and suspect there was a release that may impact 
drinking water.
    As of August 2017, DoD has identified 401 active and BRAC 
installations where there are one or more areas with a known or 
suspected release of PFOS or PFOA groundwater that may impact drinking 
water off an installation. The Military Departments are following the 
Comprehensive Environmental Response, Compensation, and Liability Act 
(CERCLA) process. The DoD Components then determine whether there is 
exposure through drinking water and, if there is exposure, the 
Departments' priority is to cut off the drinking water exposure. As of 
August 2017, the Military Departments have sampled over 2,600 
groundwater wells for PFOS/PFOA (on 90 installations) with 1,621 
sampling results exceeding the EPA LHA. The Military Departments will 
prioritize sites for further action using a risk-based approach. The 
Department's fundamental premise in site prioritization is ``worse 
first,'' meaning the DoD.
    Components will address sites that pose a greater potential risk to 
human health and the environment first. These known or suspected PFOS 
and/or PFOA release areas are in various stages of assessment, 
investigation, and cleanup. Throughout the CERCLA process, the 
Department will work in concert with regulatory agencies and 
communities, and will share information in an open and transparent 
manner. Now that we have an initial inventory, it may take a few years 
to determine the potential cleanup costs as we collect information on 
the nature and extent of the releases. As DoD moves through the CERCLA 
process, it will be necessary to understand the regulatory cleanup 
standards for PFOS and PFOA.
    We are also taking steps to remove and replace AFFF containing PFOS 
from our supply system. In January 2016, the Department issued a policy 
requiring Service-specific risk management procedures to prevent 
uncontrolled land-based AFFF releases during maintenance, testing, and 
training activities. The policy also requires the removal and proper 
disposal of AFFF containing PFOS from the local supplies for non-
shipboard use where practical. Each of the Military Departments is 
taking actions to remove AFFF containing PFOS from the supply system.
    In addition, SERDP is addressing environmental issues associated 
with PFOS and PFOA and the use of AFFF. SERDP researchers are 
developing technologies to quantify and remediate these substances in 
both soil and groundwater. SERDP is also researching fluorine-free 
substitutes for AFFF which meet the military's stringent performance 
requirements. In fiscal year 2019, ESTCP will initiate demonstrations 
of existing replacement AFFF formulations at DoD facilities to 
determine if their performance can meet DoD's needs.
    Finally, we are working with EPA and States to address the many 
challenges that have been identified since the EPA issued the LHA. 
Likewise, we are working with the Agency for Toxic Substances and 
Disease Registry (ATSDR) to support the effort to conduct the exposure 
assessment and health study required by the fiscal year 2018 NDAA. 
Addressing PFOS and PFOA is a priority for the Department, and we are 
committed to finding an alternative that meets critical mission 
requirements while protecting human health.
                    focus on the indo-pacific region
Guam and the Commonwealth of the Northern Mariana Islands (CNMI)
    Our posture in the Pacific must be capable of persistent engagement 
with all countries in the Indo-Pacific. The National Defense Strategy 
recognizes that China is leveraging military modernization, influence 
operations, and predatory economics to coerce neighboring countries to 
reorder the Indo-Pacific region to their advantage. As the most forward 
U.S. territories in the Pacific region, Guam and the Commonwealth of 
the Northern Mariana Islands (CNMI) are critical to countering China's 
influence. To that end, the Department's has three ongoing initiatives 
in Guam/CNMI: the Marine Corps relocation from Okinawa to Guam; a CNMI 
Joint Military Training (CJMT) proposal to develop ranges and training 
areas on Tinian and Pagan Islands; and the establishment of a Divert 
and Exercise Airfield on the north side of Tinian International 
Airport.
    The relocation of Marines from Okinawa to Guam, which is estimated 
to cost $8.7 billion and involves 5,000 Marines organized as a Marine 
Air-Ground Task Force (MAGTF), supports theDepartment's restructured 
posture in the Indo-Pacific region and our alliance with Japan. It will 
better align our forward-deployed forces to enable us to respond 
quickly and effectively to any contingency threatening regional 
security, to ensure rapid delivery of humanitarian assistance in 
response to natural disasters, and to provide a foundation of stability 
for the continued free movement of trade, investment, and commerce. It 
will also ensure that we fulfill our commitments to the Government of 
Japan and the Japanese people to reduce the number of Marines on 
Okinawa.
    The relocation is expected to achieve initial support capability 
(ISC) in 2024, contingent on affordability and environmental analyses. 
The fiscal year 2019 budget request includes $266 million in MILCON and 
Planning & Design funding, including $143 million for a multi-purpose 
machine gun range on Guam. Last year, the Department awarded 
approximately $750 million in construction projects, including the 
foundational $309 million utilities and site improvement project for 
the future Marine Corps Base Guam. Approximately $500 million of these 
contracts come from Japanese-provided funding. Overall, the Government 
of Japan has committed $3.1 billion to fund this relocation and has 
already transferred $1.5 billion of its commitment to the U.S. 
Treasury.
    In addition to ranges constructed on Guam for the Marine 
relocation, the Department is proposing a $910 million initiative to 
develop ranges and training areas in the CNMI to increase joint 
military training capabilities in the Indo-Pacific region. The Marine 
Corps is leading this initiative on behalf of the U.S. Pacific Command. 
While the Marines relocating to Guam will use the proposed CNMI ranges 
and training areas, these two initiatives have independent utility and 
are being studied under separate environmental analyses.
    The Air Force is continuing efforts to establish a divert 
capability for up to 12 tankers on the north side of Tinian 
International Airport, at an estimated cost of $375 million. It will 
also be used for humanitarian assistance staging, exercises and other 
aircraft support activities, significantly improving the Air Force's 
ability to conduct strategic airlift operations and provide 
humanitarian assistance and disaster relief. For fiscal year 2019, the 
budget request includes $51 million to construct a cargo pad and 
maintenance facility. The CNMI's Commonwealth Ports Authority approved 
the Air Force's Airport Layout Plan in January and forwarded it to the 
Federal Aviation Administration for final review and approval, allowing 
us to kick off land lease negotiations. Those efforts are on-going and 
we anticipate completion sometime later this year.
Public Infrastructure in the Commonwealth of Northern Mariana Islands 
        (CNMI)
    U.S. military initiatives are competing with Chinese promises of 
significant investments in new casinos and hotel construction. As such, 
public infrastructure assistance is a key component of our strategy to 
foster commitment and cooperation between the Department and the CNMI.
    The Mariana Islands play a critical role in providing a platform 
for maintaining a significant forward presence in the Indo-Pacific 
region. However, many parts of the CNMI's infrastructure are more than 
30 years old, and some portions date back to the end of World War II. 
The tropical climate and typhoons, combined with system age and limited 
maintenance, have degraded the infrastructure even further. To address 
the mutual requirement for adequate transportation infrastructure, DoD 
has proposed to partner with the local government and the local 
community in the immediate term to carry out civilian infrastructure 
assistance projects as training activities for military engineering 
units--a win-win for DoD and the community. For fiscal year 2019, the 
Department is requesting $10.5 million in investments via the Office of 
Economic Adjustment to improve public infrastructure on Tinian. 
Providing tangible improvements to the local community not only 
supports our military activities on the island, it demonstrates that 
DoD is committed to the CNMI's long-term economic growth, advancing 
Secretary Mattis' goal of strengthening partnerships.
Workforce Issues in Guam and Commonwealth of Northern Mariana Islands 
        (CNMI)
    Stable economies in Guam and CNMI, underpinned by a sustained labor 
pool, are critical to the Department's ability to implement the 
National Defense Strategy and achieve national security objectives in 
the Indo-Pacific region. However, both Guam and the CNMI are having a 
difficult time sustaining their workforce due to geographic isolation 
and a small population base. The initial cost just to get to Guam and 
or the CNMI is generally prohibitive for the type of laborer needed, 
and people from the U.S. mainland are historically hesitant to move so 
far from family and stateside conveniences. These issues will only get 
worse when Guam's/CNMI's exemption from the otherwise applicable 
nationwide cap for H-2B nonimmigrant workers and the CNMI- only 
transitional worker (CW-1) program expires on December 31, 2019. 
Without long-term access to a foreign labor pool, the economies of 
these isolated U.S. territories will suffer and the cost of ongoing 
defense projects could skyrocket beyond their current estimates.
    Although Section 1049 of the fiscal year 2018 National Defense 
Authorization Act provided some short-term relief, the Department 
believes a long-term solution recognizing Guam and the CNMI's unique 
challenges is necessary.
                     office of economic adjustment
    The request of $70 million for the Defense Office of Economic 
Adjustment directly funds programs to support and preserve our 
installations and ranges, including collaborative studies with local 
communities to ensure compatible civilian development. We also use 
these funds to study and strengthen the resiliency of supply chains to 
remain responsive to the needs of our industrial base through 
fluctuations in procurement activity. The Office is an essential 
interface to promote constructive and mutually beneficial alliances and 
partnerships with local communities, States, and territories that 
provide critical support to our warfighters. These partnerships have 
fostered an unprecedented level of support and preservation of military 
installations by States and communities who protect our bases as 
regional economic engines.
    The Office also provides funds to ensure that adequate planning and 
implementation occurs in the expansion of public services and 
investments to support our existing and growing missions. Maintaining 
support for this Office is crucial to the continued ability of our 
installations to safely and securely operate while responding to 
fluctuations in military activities, and keeping faith with our service 
members and families by addressing quality of life issues in local 
defense communities.
   military aviation and installation assurance siting clearinghouse
    The Military Aviation and Installation Assurance Siting 
Clearinghouse is the primary office within the Department of Defense 
charged with the mission to support the expansion of commercial energy 
development and power transmission in the United States in areas and 
using methods that are compatible with preservation and safe operation 
of military activities and capabilities. The Department appreciates the 
statutory changes made by Congress to Title 49 of the United States 
Code. The revised authority increases the public visibility of DoD 
impacts from specific projects, increases State engagement in the 
impact review process, improves DoD's ability to protect its missions 
from incompatible energy development, and strengthens installation 
commanders' ability to highlight potential impacts.
    As a result of Congressional direction and our own efforts, we are 
effectively evaluating the mission impact of commercial energy projects 
to identify and implement affordable and feasible mitigation solutions 
where DoD missions might be adversely impacted. In 2017 the Department 
reviewed over 4,200 applications for energy projects that were 
forwarded by the FAA, which nearly matched the high number from 2016. 
Due to the extensive collaboration between our office, local 
communities, States, and energy developers, no commercial energy 
project reviewed in 2017 rose to the level of an unacceptable risk to 
the national security of the United States.
                               conclusion
    Thank you for the opportunity to present the President's fiscal 
year 2019 budget request for DoD programs supporting installations, 
energy, and the environment. We appreciate Congress' continued support 
for our enterprise and look forward to working with you as you consider 
the budget request.

    Senator Boozman. Thank you. Lieutenant General Bingham.
STATEMENT OF LIEUTENANT GENERAL GWENDOLYN BINGHAM, 
            ASSISTANT CHIEF OF STAFF FOR INSTALLATION 
            MANAGEMENT, UNITED STATES ARMY
    General Bingham. Good morning. Chairman Boozman, Ranking 
Member Schatz, and Members of the Subcommittee, thank you for 
your leadership, your advocacy, and your support of our men and 
women who are serving in harm's way in places all around the 
globe.
    The U.S. Army is focused on readiness and lethality to meet 
combatant commander and National Defense Strategy requirements. 
The fiscal year 2018 MILCON Appropriations reflects your 
support of Army installations and we are very grateful for it.
    The Army's fiscal year 2019 Request for MILCON provides for 
ready and resilient installations. This will ensure our 
soldiers are properly trained and can be deployed anywhere in 
the world in order to fight and win our nation's wars.
    We must continue to reduce critical facilities deficits, 
recapitalize and modernize our infrastructure, and consolidate 
our installation footprint.
    The Army's Family Housing Construction budget invests in 
the Army's most valuable asset and that is our people. Quality 
housing and housing services provides homes for soldiers and 
their families living on our installations around the world.
    We continue to reduce resilience on external utility 
systems for our critical missions, improve energy and water 
efficiency, enable operational freedom of action, and 
contribute to mission readiness.
    The Army request, just over $2 billion in our fiscal year 
2019 MILCON Budget, this begins to arrest facility degradation 
and improve installation readiness. We appreciate your 
continued advocacy of predictable, adequate, sustained, and 
timely funding for our installations to continue enabling war-
fighting readiness.
    Thank you for the opportunity to appear before you today. I 
look forward to your questions.
    [The statement follows:]
         Prepared Statement of Lieutenant General Gwen Bingham
                              introduction
    Chairman Boozman, Ranking Member Schatz, and Members of the 
Subcommittee: Thank you for your strong support of our Soldiers, 
Civilians and their Families who serve on Army installations and 
specifically, for funding increases for installations and Military 
Construction in fiscal year 2018. We welcome this support as it will 
provide greater flexibility to address mission critical infrastructure 
requirements that affect warfighting readiness.
    Predictable, adequate, sustained and timely funding for 
installations enables all aspects of warfighting readiness--our top 
priority. Installations support the National Defense Strategy by 
generating and projecting ready forces from locations around the globe. 
Army installations, National Guard Readiness Centers and Army Reserve 
Centers must be ready and resilient to enable the Army to train, fight 
and win our nation's wars. We will focus our efforts and resources on 
the priorities of Readiness, Modernization and Reform, and an enduring 
commitment to care for our Soldiers, Civilians and their Families.
    The Army makes deliberate choices to ensure our Soldiers have what 
they need to prevail against our adversaries . . .  they deserve 
nothing less. While the Army inventory of facilities that are in poor 
or failing condition grew from 22 to 25 percent this past year, we have 
made significant improvements in our barracks and housing investments. 
Specifically, we have improved the quality of our training and 
permanent party barracks by 14 percent and 5 percent respectively since 
2014. Further, we are on glide path to improve 90 percent of our 
overall Army-owned housing inventory to good or adequate quality by the 
end of fiscal year 2020. The Army is increasing its facility 
sustainment levels and focusing its infrastructure investment on 
readiness priorities that enhance lethality and Soldier and Mission 
Readiness.
    We are encouraged and grateful that the President's fiscal year 
2019 budget request will begin to arrest facility degradation and buy 
down the maintenance backlog ($11.2 billion). Working with all Army 
Commands, we have made great strides over the past year to identify 
those facilities that most directly contribute to the Army's 
operational missions. We will focus allocation of the funds provided to 
us, now and in the future, on facilities that support power projection, 
mobilization, and warfighter mission needs such as airfields, ranges, 
maintenance facilities and barracks.
                     mission readiness investments
    The Army's request for MILCON provides secure and sustainable 
facilities to meet the Army's emergent needs in three critical subsets 
of overall installation readiness: critical facilities deficits; 
recapitalization and modernization; and footprint consolidation. For 
fiscal year 2019, the Army requests just over $2.02 billion for 
Military Construction, an increase of 13 percent ($234 million) from 
our fiscal year 2018 request. The budget allocates $1,011 million for 
the Regular Army (RA); $180 million for the Army National Guard (ARNG); 
$64 million for Army Reserve (USAR); $330 million for Army Family 
Housing Construction (AFHC); $376 million for Army Family Housing 
Operations (AFHO); and $62 million for the Army portion of the Base 
Closure Account (BCA).
    The $1.1 billion MILCON request for the RA will allow the Army to 
move forward with projects such as the Fort Gordon, Georgia, Cyber 
Instructional Facility for $99 million; Fort Campbell, Kentucky, 
Vehicle Maintenance Shop for $32 million; and the Picatinny Arsenal, 
New Jersey, Munitions Disassembly Complex for $41 million.
    The ARNG's fiscal year 2019 MILCON request of $180 million 
includes: $106 million to build Readiness Centers in Montana, Nevada, 
New Hampshire, North Dakota and South Dakota; $12.4 million to 
construct two range projects; $27 million to construct an 
administrative and warehouse facility; $18.1 million for Unspecified 
Minor Military Construction (UMMC); and $16.6 million for planning and 
design. Our ARNG budget request is focused on recapitalizing readiness 
centers--the heart and soul of the National Guard--as well as ranges to 
allow the Guard to be ready to perform state and Federal missions. Many 
of these projects will consolidate units and functions into a single 
facility allowing the Guard to close multiple older facilities.
    The fiscal year 2019 budget request for the USAR totals $64.9 
million with two critical projects replacing our most dilapidated and 
failing facilities. The two projects are: $34 million to replace an 
Equipment Concentration Site in Barstow, California; and $23 million to 
replace World War II era Transient Training Barracks at Fort McCoy, 
Wisconsin. An additional $7.9 million will support planning and design 
of future year projects, and address critical needs through the UMMC 
account.
    Sustainment, Restoration, and Modernization (SRM) accounts fund 
investments to maintain and improve the condition of our facilities. 
Periodic restoration and modernization of facility components are 
necessary to ensure the reliable functionality of our facilities in 
support of mission readiness. Efforts are focused on preventing the 
degradation of facilities and precluding small maintenance issues from 
turning into large and expensive problems.
    We appreciate the additional funding Congress provided the Army in 
fiscal year 2017 and fiscal year 2018 to meet the most pressing SRM 
needs on our installations. The fiscal year 2019 $4.7 billion budget 
request gets us closer to meeting our full SRM requirements. The $1.6 
billion request for restoration and modernization funding, an increase 
of $735 million over fiscal year 2017 execution, will enable the Army 
to address up to 8 percent of our critical maintenance backlog 
requirements.
    In lieu of another request for legislation in fiscal year 2019 
authorizing an additional Base Realignment and Closure (BRAC) round, we 
will review our facilities, to include facility usage optimization, 
ensuring we have a better accounting of excess infrastructure. 
Commanders are accountable for making all reasonable efforts to 
consolidate units into our best facilities; maximize space utilization; 
and dispose of excess assets.
                      soldier and family readiness
    The Army Family Housing Construction budget allows us to provide 
homes and related housing services to Soldiers and their Families 
living on our installations around the world. For fiscal year 2019, the 
Army requests $330.6 million for Family housing construction. This will 
fund $85 million for new housing at Camp Humphreys, South Korea and $68 
million for replacement housing at Camp Walker, South Korea, which meet 
the U.S. Forces Korea Commander's requirements for on-post housing. The 
request also replaces poor and failing housing units in Baumholder, 
Germany, and Fort Buchanan, Puerto Rico, for $32 million and $26 
million, respectively. The Army's request provides $95.1 million for 
new housing construction at Vicenza, Italy, and $6.2 million at Fort 
McCoy.
    An additional $376 million is requested to sustain all Family 
housing operations; cover utility costs; ensure proper maintenance and 
repair of government Family housing units; lease properties where 
required; and provide privatization oversight. Soldier and Family 
Housing and Quality of Life programs are an investment in the Army's 
most valuable asset--our people.
    We are also investing in our deployed Soldier's quality of life by 
constructing a $21 million barracks at Soto Cano Air Base, Honduras.
                ensuring energy security and resilience
    Assured access to energy and water underpins readiness-related 
functions that occur on Army installations. Installations and the 
missions they support are at risk to disruptions to energy and water 
services posed by acts of nature or acts of man.
    The Acting Secretary of the Army directed new installation energy 
and water security requirements in February 2017. This Directive sets a 
requirement to secure critical missions by being capable of providing 
necessary energy and water for a minimum of 14-days and sustaining 
critical missions through secure access to energy and water; reliable 
infrastructure condition; and effective system operations to include 
exercising emergency operations plans with scenarios that address grid 
outages. Measuring our installation resilience with energy and water 
security metrics is vitally important as we inculcate energy and water 
security into the total Army readiness posture and make strategic 
investment decisions to reduce the greatest vulnerabilities first.
    Our installation energy budget request is focused on enhancing 
mission effectiveness and is supported by strong business case 
analyses. The Army continues to leverage private sector expertise and 
investment to improve system reliability; reduce consumption; and 
improve energy and water resilience. The Army leads the Federal 
Government in the use of Energy Savings Performance Contracts (ESPCs) 
and Utility Energy Service Contracts (UESCs).
    The Army manages more than 13.8 million acres of land, on which we 
interact with endangered species, preserve historic sites and restore 
critical or contaminated lands. Performing these functions well permits 
continued Army operations and protects our Soldiers, Families and 
communities. Our fiscal year 2019 environmental program budget request 
of $914 million will keep the Army on track to meet our cleanup goals 
and maintain full access to important training and testing lands, which 
are integral components of Army readiness.
    The Army's energy security and sustainability program has proven 
results--reducing our reliance on external utility systems; improving 
energy and water efficiency; enabling operational freedom of action; 
and contributing to mission readiness. We urge Congress to continue to 
support the Army's energy security and resilience initiatives.
                               conclusion
    We appreciate your support for the Army's fiscal year 2019 MILCON 
budget and thank you for your continued advocacy. This budget 
represents significant and positive steps toward increasing 
installation readiness.
    Army installations generate and project Army Readiness. We need 
ready and resilient installations to ensure our Soldiers are properly 
trained and can be deployed anywhere in the world in order to fight and 
win our nation's wars.
    The Army is methodically increasing its facility sustainment levels 
and focusing its infrastructure investment on readiness priorities to 
support power projection, mobilization and the warfighter. Predictable, 
adequate, sustained and timely funding allows the Army to maintain its 
critical infrastructure and to support Soldiers, Civilians and 
Families.
    Readiness is the foundation that keeps our nation free. Our people 
are the blueprint of this foundation. They deserve the best facilities, 
programs and services we can afford.
    Thank you for the opportunity to present this testimony and for 
your continued support of our Soldiers, Civilians and Families.

    Senator Boozman. Thank you very much. Vice Admiral Smith.
STATEMENT OF VICE ADMIRAL DIXON R. SMITH, DEPUTY CHIEF 
            OF NAVAL OPERATIONS FOR FLEET READINESS AND 
            LOGISTICS, U.S. NAVY
    Admiral Smith. Chairman Boozman, Ranking Member Schatz, and 
Distinguished Members of the Subcommittee, and I appreciate the 
opportunity to provide an overview of the Navy's fiscal year 
2019 Military Construction Budget Request.
    On behalf of the sailors and their families, thank you for 
you and your continued support of the Navy, its Military 
Construction Program, and our 71 installations around the world 
which enable the Navy the nation needs.
    Thank you, as well, for the funding you provided in both 
the fiscal year 2018 Omnibus Appropriation and the Hurricane 
Amendment.
    The fiscal year 2018 Omnibus Appropriation included 
critical Navy MILCON projects, such as the Communications and 
Crypto Facility in Hawaii, which underpin the Department of 
Defense priorities to restore war-fighting readiness and 
increase lethality.
    Further, the fiscal year 1981 Hurricane Amendment is 
enabling us to repair, replace Navy facilities damaged or 
destroyed by hurricanes at installations in Florida, Georgia, 
Texas, and Puerto Rico.
    The Navy's fiscal year 2019 MILCON Budget Request of 
approximately $2 billion for 33 projects is the largest in a 
decade. Coupled with an additional 2.1 billion in fiscal year 
2019 to sustain, restore, and modernize our facilities, the 
proposed investments are deliberately targeting to slow further 
degradation of our facilities and begin reducing the existing 
$14.3 billion backlog of facilities, maintenance, and repair.
    While this request would achieve significant progress for 
the shore accounts, it is tempered by the reality that these 
problems were not created overnight and the path to full 
readiness recovery will take a long-term commitment of 
resources, predictable funding, and time.
    The shore investments are inextricably linked to the Navy 
the nation needs to ensure we achieve a bigger, better, 
networked, talented, agile, and ready fleet. Indeed, CNO 
Richardson recently testified to the importance of the 
shipyards as a critical enabler and, as you know, the Navy 
recently released our Shipyard Infrastructure Optimization Plan 
to recapitalize these critical facilities.
    This report to Congress outlines a $21 billion investment 
plan to improve dry docks, optimize our shipyards, and invest 
in capital equipment over 20 years. Approximately $18 billion 
of the total is just for infrastructure and that equates to 
approximately $900 million per year. These projected funding 
levels far exceed Navy's historical investment in shipyards.
    In order to optimize our shipyards at a cost above and 
beyond our shore investment plan, the Navy will remain closely 
aligned with Congress to ensure our path to success.
    It is a privilege to testify before this committee today 
and share the details of our proposed fiscal year 2019 
investments. Congress is our critical partner to achieve the 
Navy the nation needs. As the Secretary and CNO testified 
Tuesday, we are committed to being good stewards of the 
taxpayer dollar. We will invest smartly and will drive 
efficiency to ensure the best return on investment for the 
nation, our sailors and civilians.
    Again, thank you for your support of the Navy Shore 
Infrastructure Programs, and I look forward to your questions.
    [The statement follows:]
           Prepared Statement of Vice Admiral Dixon R. Smith
    Chairman Boozman, Vice Chairman Schatz, and distinguished members 
of the Committee, it is an honor to appear before you representing the 
thousands of Navy Sailors and civilians at our seventy-one 
installations worldwide. Thank you for the opportunity to testify about 
the Navy's fiscal year 2019 budget request for our shore readiness and 
infrastructure programs.
    The President's National Security Strategy, clearly sets forth our 
priorities directing our Navy to protect the American homeland, promote 
American economic prosperity, and advance American influence throughout 
the world. Further, the National Defense Strategy (NDS) articulates our 
plan to compete, deter and win in the new competitive security 
environment of our time. The Navy is supporting the NDS with the ``Navy 
the Nation Needs,'' which further details the Navy's role as part of 
the broader military joint force.
    Our shore infrastructure is an integral component to achieving the 
Navy the Nation Needs. It is an enabler to helping us achieve (1) a 
bigger, (2) better, (3) networked, (4) agile, (5) talented, and 
particularly (6) ready fleet. To enable that ready fleet, the Navy has 
a nearly $1 billion increase in infrastructure to fund 33 Navy military 
construction projects--the largest such request in over a decade, and 
more than double the fiscal year 2018 budget request. The shore enables 
military readiness, combat power projection, and the security of 
personnel, family members and equipment. Importantly, the shore is 
foundational to the fight, as many of the Navy's platforms plan, train, 
launch and reconstitute from our installations, and some perform their 
entire mission from our bases. Increases in the Navy's fiscal year 2019 
budget request begins to improve the infrastructure necessary to 
support a more lethal and resilient Fleet.
    We thank the Congress for enacting the fiscal year 2018 
Appropriations Act and for the additional funding for facilities 
sustainment, restoration, and modernization (FSRM) to address pressing 
shortfalls, additional BRAC funds to address Hunter's Point and 
perfluorinated chemicals, and other additional funding that supports 
key areas of shore readiness. We also thank the Congress for passage of 
the fiscal year 2018 Hurricane Amendment earlier this year that 
provided critical funding for Navy installations in Florida, Georgia, 
Texas, and Puerto Rico to enable repair and replacement of facilities 
damaged or destroyed by hurricanes.
                         military construction
    For 2019, the Navy made a deliberate investment in military 
construction (MILCON) to increase lethality, capacity and capability. 
The fiscal year 2019 MILCON budget request includes 33 projects, 
planning and design (P&D), and unspecified military construction at a 
value of nearly $2 billion.
    Nearly half of the MILCON program ($824 million) is in direct 
support to the National Defense Strategy's highest priorities of 
increasing lethality with new platforms and strengthening alliances 
through the European Deterrence Initiative. This program also invests 
in restoring warfighting readiness and further advancing the 
restoration of our Naval Shipyards and support the Navy Reserves.

Increasing Lethality/New Platform ($609 million, 14 projects)

  --Missile Assembly Building and High Explosive Magazine--San Nicholas 
        Island ($31 million)

  --Directed Energy Systems Integration Lab--Naval Base (NB) Ventura 
        County ($22 million)

  --F-35 Maintenance Hangar--Naval Air Station (NAS) Lemoore ($113 
        million)

  --CMV-22B Airfield Improvements--NB Coronado ($78 million)

  --Full Motion Trainer Facility--Marine Corps Base (MCB) Camp 
        Pendleton ($11 million)

  --Electrical Upgrades--MCB Camp Pendleton ($4 million)

  --Littoral Combat Ship (LCS) Support Facility--Naval Station (NS) 
        Mayport ($82 million)

  --LCS Operational Training Facility Addition--NS Mayport ($29 
        million)

  --Submarine Propulsor Manufacturing Support Facility--Philadelphia 
        Navy Yard Annex ($71 million)

  --D5 Missile Motor Receipt/Storage Facility--Utah Test and Training 
        Range ($106 million)

  --Fleet Support Facility--NAS Whidbey Island ($19 million)

  --Next Generation Jammer Facility--NAS Whidbey Island ($8 million)

  --Fleet Maintenance Facility & Tactical Ops Center--Naval Support 
        Activity (NSA), Bahrain ($26 million)

  --Tactical Operations Center--Commander Fleet Activities Okinawa, 
        Japan ($9 million)

Strengthen Alliances/European Deterrence Initiative (EDI) ($215 
million, 5 projects)

  --Marathi Logistics Support Center --NSA Souda Bay, Greece ($6 
        million)

  --Joint Mobility Processing Center--NSA Souda Bay, Greece ($42 
        million)

  --P-8A Taxiway and Apron Upgrades--NAS Sigonella, Italy ($66 million)

  --Port Operation Facilities--NS Rota, SP ($22 million)

  --P-8 Base Improvement--Lossiemouth, UK ($79 million)

Restore Warfighting Readiness ($709 million, 9 projects)

  --Causeway, Boat Channel & Turning Basin--Naval Weapons Station Seal 
        Beach ($118 million)

  --Harbor Drive Switching Station--NB San Diego ($48 million)

  --Pier 8 Replacement--NB San Diego ($108 million)

  --Master Time Clocks & Operations Facility--NSA Washington, DC ($116 
        million)

  --Water Transmission Line--Joint Base Pearl Harbor-Hickam ($78 
        million)

  --Transit Protection System Pier and Maintenance Facility--NB Kitsap 
        ($89 million)

  --Unaccompanied Enlisted Housing--NB Guam ($36 million)

  --Solid Waste Management Facility--NS Guantanamo Bay, Cuba ($85 
        million)

  --AUTEC Austere Quarters--Andros Island, Bahamas ($31 million)

Shipyard Investment ($221 million, 4 projects)

  --Dry Dock Waterfront Facility--JB Pearl Harbor-Hickam ($45 million)

  --Dry Dock #1 Superflood Basin--Portsmouth Naval Shipyard (NSY) ($110 
        million)

  --Extend Portal Crane--Portsmouth NSY ($40 million)

  --Ships Maintenance Facility--NS Norfolk ($26 million)

Supporting the Navy Reserves ($14 million, 1 project)

  --Reserve Training Center--Fort Benning ($14 million)
     facilities sustainment, restoration, and modernization (fsrm)
    The fiscal year 2019 budget requests $2.1 billion to sustain 
infrastructure, and improves our facility sustainment from 78 percent 
of the Department of Defense (DoD) model in fiscal year 2018 to 80 
percent in fiscal year 2019. This is the third straight year the Navy 
has increased this funding level in its budget request, demonstrating 
our commitment to a more balanced investment to support Navy wholeness.
    That said, persistent reduced-resourcing of our shore 
infrastructure has taken its toll, resulting in a significant 
facilities maintenance backlog. The Navy has strived to mitigate this 
backlog by implementing a facility investment strategy that ensures our 
most critical facilities and components are maintained and secure. 
While this has allowed us to triage our facility requirements, it has 
accelerated degradation of the majority of our facilities across the 
Navy. Deferring maintenance on important, but not mission-critical 
facilities, impacts Sailors' ability to train, their quality of life, 
and often requires operational workarounds, such as waivers, temporary 
facilities, or inefficient processes. While the Navy will begin to 
reduce the facilities maintenance backlog with the fiscal year 2019 
budget request, maintaining the path to full readiness recovery will 
take a long-term commitment of resources, predictable funding and time.
                             family housing
    The Secretary of the Navy has stated that the we must make 
strategic investments in recruiting and retaining our Sailors, and our 
fiscal year 2019 budget request supports this by providing Sailors and 
their families the opportunity for suitable, safe, and affordable 
housing. The Navy continues to rely on the private sector to house 
Sailors and their families, and when options are not available or are 
insufficient, Navy provides government-owned, leased, and privatized 
housing.
    The fiscal year 2019 Family Housing budget request provides $279.7 
million for the operation and maintenance of almost 7,100 government-
owned homes, leases for approximately 1,700 units, replacement and 
renovation of approximately 490 units, and oversight of nearly 40,000 
privatized housing units. In addition, the Family Housing construction 
request of $87 million will assist in the elimination of inadequate 
units at Naval Support Activity Andersen, Guam by replacing 96 homes.
                         base operating support
    Our fiscal year 2019 budget request invests $4.5 billion in base 
operating support, remaining flat since the enactment of the Budget 
Control Act in 2013. This funding level provides minimally compliant 
outputs and service levels at our installations, and we prioritize 
resources to minimize
    impact to mission, force protection, and quality of life at the 
expense of other base operating support functions. This long-term 
pressurization of base operating support has translated into higher 
assumed risk. As this risk becomes normalized over time, it continues 
to compound and accumulate. The Navy remains committed to deliberately 
and effectively managing these accumulated risks within available 
resourcing.
                  base realignment and closure (brac)
    The Navy's fiscal year 2019 budget request includes $152 million 
for installations closed in previous BRAC rounds; $142 million of this 
is for environmental cleanup. The Navy has completed disposal of 94 
percent of property (178,531 acres) with the remaining 6 percent 
representing 11,254 acres at 16 installations. Over 50 percent of the 
remaining property is at two BRAC 2005 installations (NAS Joint Reserve 
Base Willow Grove, PA, and NWS Concord, CA). The majority of the 
remaining property transfers are planned to occur by 2026. There are 28 
installations with no property remaining for transfer, but still 
require environmental cleanup or monitoring.
                               conclusion
    As CNO has articulated, a fundamental principle of our budget 
request is that naval power is about maintaining balance across all six 
dimensions of naval power. The readiness of the shore is integral to 
achieving the Navy the Nation Needs. Further, we seek to optimize the 
balance among all six of our pillars--to ensure support to the fleet 
and the warfighter to maneuver, respond and win in a short or prolonged 
fight. Our shore investments strategy enables and underpins these 
investments to increase naval power in a balanced approach to meet our 
national strategic objectives. Thank you for your steadfast support of 
Navy's shore readiness and infrastructure programs and your unwavering 
commitment to our Sailors, Navy civilians and their families.

    Senator Boozman. Thank you very much. Major General 
Coglianese.
STATEMENT OF MAJOR GENERAL VINCENT A. COGLIANESE, U.S. 
            MARINE CORPS COMMANDER, MARINE CORPS 
            INSTALLATIONS COMMAND, ASSISTANT DEPUTY 
            COMMANDANT, INSTALLATIONS AND LOGISTICS 
            FACILITIES
    General Coglianese. Chairman Boozman, Ranking Member 
Schatz, Distinguished Members of the Committee, on behalf of 
General Neller and thousands of Marines and sailors, civilians 
and family members, we thank you for continued support to 
defense of the nation and the United States Marine Corps.
    Thanks to your support, your Marine Corps is on track to 
make significant improvements in the quality and condition of 
our installation infrastructure, which is fundamental to combat 
readiness and a generation of combat power.
    Our installations provide three critical force-enabling 
functions. First, they're the deployment platforms for which 
our expeditionary forces fight and win our nation's battles. 
Second, they're where our Marine Air Ground Task Force train 
and hone their combat skills. Third, they're home to our 
Marines, sailors, and families.
    As commander, the single authority of the Marine Corps 
installation matters the protection of our installations is my 
Number 1 concern. There's a myriad of challenges in the current 
operating environment and all signs indicate those challenges 
will compound and grow.
    The fact is our installations are vulnerable targets for 
growing hosts for sophisticated threats, the intent to disrupt 
and degrading our ability to generate combat power in the 
support of national defense. Our installations must prove 
resilient in the face of threats we face. We need to invest in 
next generation installation infrastructure to match the 
growing MAGTF capability.
    Your support is crucial as we begin to develop the 
installation infrastructure support next generation MAGTF.
    The Marine Corps Infrastructure Reset Strategy, which was 
signed by the Commandant, will improve the life cycle 
management and ensure the infrastructure investments are 
aligned with the Marine Corps capability base requirements to 
support the war-fighting mission and contribute directly to the 
current and future readiness.
    PB-19 funds, the Infrastructure Reset, with the realized 
long-term savings through reduction of over 1,056 failing 
structures, which will recoup 14 million square feet over the 
fit-up which will yield a cost avoidance in facilities 
sustainment restoration modernization accounts.
    Our Infrastructure Reset, if properly funded and executed, 
will set us on solid ground as we pivot and set conditions to 
fully enable our operating forces. No place to hide, no 
sanctuary, no boundaries. This is a new operating environment 
and the implications of our installations are profound.
    Tomorrow's Marine Corps installation will look much 
different than in existence today. Our installations are power 
project platforms that are only as lethal as those forces we 
project whose training and readiness are key. We must also look 
to the modernization, how and where we train. We must advance 
our protection capabilities and it's vital to increase the 
resiliency in the face of increasing threats.
    We are promoting an atmosphere of innovation and 
modernization by working with industry to incorporate the 
cutting edge technologies across our installations.
    I look forward to working with you to sustain the war-
fighting capability of readiness of our power projection 
platforms and a quality of life for our Marine Corps.
    Thank you for the time and the opportunity to speak on 
behalf of the Marines, sailors, families, and civilians. I look 
forward to your questions.
    [The statement follows:]
       Prepared Statement of Major General Vincent A. Coglianese
    Chairman Boozman, Ranking Member Schatz, and distinguished Members 
of the Committee, I appreciate the opportunity to discuss the Marine 
Corps installations infrastructure programs which are critical to our 
ability to train forces and be ready. Thanks to the strong support we 
have received from the Congress, the Marine Corps has been able to make 
significant improvements in the quality and condition of our 
installation infrastructure.
    Marine Corps installations represent an irreplaceable national 
asset. They are fundamental to combat readiness, particularly 
generation of combat power. Additionally, they are home to our Marines, 
Sailors and their families, and will continue to be integral to their 
quality of life through the provision of a range of housing, community 
support infrastructure.
    As Commander, and the single authority on all Marine Corps 
Installation matters, the protection of our installations is my number 
one priority. There are myriad challenges in the current operating 
environment, and all the signs indicate those challenges will compound 
and grow. The most recent National Defense Strategy asserts the 
homeland is no longer a sanctuary, and recent asymmetric attacks on 
military installations across the country highlight the insider threat. 
The fact is, our installations are vulnerable targets for a growing 
host of sophisticated threats intent on disrupting and degrading our 
ability to generate combat power in support of the National Defense 
Strategy. Ensuring the protection of life and property serves to ensure 
our ability to execute those essential operations that enable the 
training and deployment of our combat forces. Maintaining the maneuver 
space to adapt and evolve our protection measures must occupy a central 
place in our conversations of modernization and readiness. It is 
imperative we have the ability and authority to execute investments 
that afford protection against both inside and outside threats.
    The operation and maintenance of these installations as well as 
their future development and use require long-term planning, careful 
investment, and timely program execution. Implementation of the 
Commandant's Infrastructure Reset Strategy will ensure our 
installations are capable of supporting Marine Corps operations well 
into the future.
    The Marine Corps has installations and support infrastructure 
worldwide valued at more than $66 billion that are used to train, 
house, and provide quality of life for Marines and their families. This 
infrastructure must be properly maintained to prevent degradation of 
our capability to support these mission-essential tasks. Adequately 
protecting our installations, supporting new warfighting and training 
capabilities, and sustaining infrastructure are top installations 
management priorities for the Marine Corps.
                      impact of budget uncertainty
    With Congress' strong support, the Marine Corps has made 
significant progress over the last 9 years in replacing old and 
unsatisfactory infrastructure. We appreciate actions taken by Congress 
to enact the Bipartisan Budget Act of 2018 that provides relief from 
the Budget Control Act defense spending caps in both fiscal years 2018 
and 2019. However, budget uncertainty beyond fiscal year 2019 will 
erode our readiness and will continue to have negative impacts on our 
ability to make long-term decisions necessary for a healthy 
infrastructure portfolio. Long-term reduced funding of installations 
requirements will result in gradual degradation of our infrastructure 
and create a bow wave of increased future costs to return these assets 
to adequate condition. Your Marine Corps requires continued support 
from Congress with predictable budgets over a sustained period are 
needed in order to maintain and improve infrastructure readiness.
    To maintain near-term operational readiness, the Marine Corps has 
been forced to accept risk in its infrastructure portfolio. Taking risk 
in the facilities sustainment, restoration and modernization, and 
military construction programs has resulted in the degradation of our 
infrastructure, which in turn increases lifecycle costs. Improving the 
current state of our installations is the single most important 
investment to support training, operations, and quality of life.
    The Marine Corps has prioritized military construction projects 
that support new weapons platforms (primarily the F-35) and other 
projects associated with life, health, and safety concerns. Congress 
has been very supportive of prior MILCON budget requests. Thanks to the 
Congress, the Marine Corps has received funding for many projects that 
positively impact readiness and training.
    As part of ongoing business reform initiatives, the Marine Corps' 
Infrastructure Reset Strategy seeks to improve infrastructure lifecycle 
management and ensure infrastructure investments are aligned with 
Marine Corps installations that are capable, adaptive, and economically 
sustainable platforms from which to generate readiness and project 
combat power in a fiscally constrained environment. Implementation of 
this strategy consolidates and appropriately resets the infrastructure 
footprint within existing installations to improve operational 
readiness and generate resources for reinvestment. Successful execution 
of this strategy will depend on future budget stability.
    We must prioritize Infrastructure Reset--we must improve 
infrastructure lifecycle management and ensure infrastructure 
investments are aligned with Marine Corps capability- based 
requirements to support the warfighting mission and contribute directly 
to current and future Force readiness. PB19 funds the Infrastructure 
Reset Strategy with realized long-term cost savings through a reduction 
of 1,056 failing structures (14 million square feet) during the Future 
Years Defense Program (FYDP) and yield savings in Facilities 
Sustainment, Restoration and Modernization (FSRM) accounts. Our 
installations provide three critical force enabling functions. First, 
they are deployment platforms from which our expeditionary forces fight 
and win our Nation's battles; second, they are where our Marine Air 
Ground Task Forces (MAGTFs) train and hone their combat readiness; and 
third, they house our Marines and families.
                         military construction
    The Marine Corps' fiscal year 2019 Military Construction (MILCON) 
program includes 16 projects valued at approximately $906 million which 
is an 18 percent increase over the fiscal year 2018 budget submission 
of $765 million.
    Marine Corps MILCON requirements are driven by operating force and 
other mission requirements such as: (1) introducing new platforms or 
weapons; (2) relocating forces to better position assets to meet the 
national military strategy; (3) meeting force protection or safety 
standards; (4) enhancing or replacing infrastructure that is in poor or 
failing condition; (5) meeting new and improved training standards for 
the 21st century Marine Corps; (6) modernizing critical infrastructure; 
(7) improving utilities reliability and resilience to support 
readiness; (8) meeting environmental regulations and laws and energy 
reduction mandates; (9) improving training areas to include aerial/
ground ranges; and (10) acquiring land needed to support training.
    The primary focus areas of the fiscal year 2019 Marine Corps MILCON 
budget request include: (1) supporting the bed down of new capabilities 
and platforms; (2) providing infrastructure to support force 
relocations; (3) recapitalization and replacement of inadequate 
facilities; and (4) meeting safety and environmental mandates. Our 
fiscal year 2019 budget accomplishes the following:

  --Supports new platforms such as Joint Strike Fighter (F-35) and 
        Amphibious Combat Vehicle (ACV) with new aircraft and vehicle 
        maintenance facilities.

  --Provides aviation maintenance facilities to continue support for 
        the relocation of aviation squadrons to Marine Corps Base, 
        Hawaii.

  --Provides ordnance, training, and quality of life infrastructure to 
        support the relocation of Marines from Japan to Guam.

  --Improves security, safety, and environmental compliance posture at 
        various bases.

  --Replaces and modernizes numerous inadequate and obsolete facilities 
        and infrastructure in order to improve operations, quality of 
        life, and training.

  --Supports our Reserve component with operational and training 
        facilities at Seal Beach, California.
        infrastructure sustainment, restoration, and demolition
    The President's Budget for fiscal year 2019 funds 80 percent of the 
OSD facilities sustainment model requirement for the Marine Corps. When 
restoring and modernizing our infrastructure, we prioritize life, 
health, and safety issues and efficiency improvements to existing 
infrastructure and focus on repairing only the most critical components 
of our mission critical facilities. By deferring less critical repairs, 
especially for non-mission critical infrastructure, we are allowing 
certain facilities to degrade and causing our overall facilities 
maintenance backlog to increase. We acknowledge this backlog must 
eventually be addressed.
    The first step in addressing this backlog is reflected in the 
Marine Corps request of $77 million in fiscal year 2019 for the 
demolition of 1.8 million square feet of failing and obsolete 
facilities to enable implementation of the Commandant's Infrastructure 
Reset Strategy.
                             family housing
    Our world-wide family housing inventory is 96 percent privatized, 
which has improved the homes in which our families live and support 
infrastructure such as community centers, playgrounds, and ``green 
spaces'' that help create neighborhoods and a sense of community for 
our Marines and their families. Combined with traditional military 
construction, privatized housing will continue to build and improve the 
homes necessary to supplement local community housing.
    The Marine Corps is not requesting any new family housing 
construction in fiscal year 2019 through either traditional MILCON or 
through the use of privatization authorities. However, we are 
requesting $16.6 million in the family housing, construction 
improvements account for the sustainment and restoration of 44 junior 
enlisted family housing townhouse units at MCAS Iwakuni, Japan in order 
to continue with the renovation of Iwakuni housing neighborhoods. This 
will provide much needed improvements to quality of life for our 
Marines and their families stationed overseas.
                               conclusion
    In past years, we took risk in our installation portfolio to 
support near-term operational readiness. Continued reduced funding of 
our long-term infrastructure needs will create increasingly 
disproportionate long-term costs, inconsistent with disciplined fiscal 
principles and business reforms prioritized by the Secretary of 
Defense. As outlined in the National Defense Strategy, our 
installations must prove resilient in the face of the threats we face. 
We must modernize our installations to protect our blunt and surge 
layer forces and reassure our partners and allies. Our operational 
capabilities are adapting to meet these changes, and we need to invest 
in a next generation installation infrastructure to match the growing 
MAGTF capability. Your support is crucial as we begin to develop 
installation infrastructure to support our Next Generation MAGTF. The 
fiscal year 2019 budget request supports this premise.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you to sustain the warfighting capability, the 
readiness of our power projection platforms and quality of life of the 
Marine Corps.

    Senator Boozman. Thank you. Major General Green.
STATEMENT OF MAJOR GENERAL TIMOTHY S. GREEN, DIRECTOR 
            OF CIVIL ENGINEERS, DEPUTY CHIEF OF STAFF 
            FOR LOGISTICS, ENGINEERING AND FORCE 
            PROTECTION, U.S. AIR FORCE
    General Green. Chairman Boozman, Ranking Member Schatz, and 
Distinguished Members of the Committee, I'm honored today to 
represent America's airmen and also to discuss the Air Force's 
fiscal year 2019 Military Construction and Housing Request.
    I want to start with a thank you for your personal support 
for the five fiscal year 2018 and 35-A Beddown Projects at 
Ellison Air Force Base that we requested as part of the last 
and final continuing resolution this year. Your support allowed 
us in fact award these projects ahead of the summer 
construction season this year in Alaska and you've kept the 
beddown on track. So thank you.
    I also want to say thanks for your support in giving the 
Air Force much-needed budgetary relief in fiscal year 2018 and 
2019 through the Bipartisan Budget Agreement. Your support 
enables the Air Force to meet the National Defense Strategy 
objectives.
    The Air Force's fiscal year 2019 Budget Request is rooted 
in the realities of our strategic environment and the re-
emergence of great power competition. As we prepared this 
budget request, the Air Force deliberately evaluated both 
today's needs and the capabilities demanded by anticipated 
future threats.
    The result is a budget aligned with the National Defense 
Strategy to restore readiness, drive innovation, and prepare 
the Air Force to win any fight at any time.
    Our 2019 Budget Request includes $1.78 billion in military 
construction requirements, prioritizing our efforts in three 
primary categories: the beddown of new weapon systems, 
combatant command urgent requirements, and recapitalizing our 
existing mission infrastructure.
    At the macro level, the Air Force infrastructure investment 
is approximately $887 million in support of the Air Force's 
Modernization Programs, including the beddown of the F-35A and 
KC-46A.
    We request $230 million for Combatant Commander Urgent 
Requirements, ensuring the United States is positioned to 
project power across the globe.
    This year's budget request also includes $377 million to 
recapitalize our most urgent existing mission infrastructure 
needs, including $225 million to maintain necessary research 
and development facilities to ensure we maintain a 
technological edge over our adversaries.
    Additionally, too often lost in our focus on readiness and 
lethality is the importance of the quality of life facilities 
on recruiting and retention as they support our airmen and 
their families.
    The fiscal year 2019 Budget Request includes $395 million 
for quality of life funding for military housing construction 
and operations and maintenance.
    In total, our fiscal year 2019 Military Construction 
Request represents a strategic balance for capability and 
capacity, ensuring that we are best postured to field a ready 
force today while concurrently modernizing for the challenges 
of tomorrow.
    Chairman Boozman, Ranking Member Schatz, thank you again 
for the opportunity to testify today, and I look forward to 
your questions.
    [The statement follows:]
          Prepared Statement of Major General Timothy S. Green
                              introduction
    The United States now faces a more competitive and dangerous 
international security environment than we have seen in generations. 
Great power competition has reemerged as the central challenge to U.S. 
prosperity and security. As our fiscal year 2019 Posture Statement 
states, ``with global trends and intensifying pressure from major 
challengers, our relative advantage in air and space is eroding in a 
number of critical areas.'' The Air Force requires the right size and 
mix of capabilities to compete, deter, and win in this environment, 
which includes the necessary infrastructure and facilities support.
    As we prepared this budget request, the Air Force deliberately 
evaluated both today's needs and the capabilities demanded by 
anticipated future threats. The result is a budget aligned with the 
National Security Strategy and the National Defense Strategy to restore 
readiness, drive modernization, and prepare the Air Force to win any 
fight at any time. Our advantage in air and space is eroding in a 
number of critical areas. This budget request provides for a lethal and 
ready force to compete and win as we return to an era of Great Power 
Competition. Air and space power is indispensable to every joint force 
operation. The Air Force's first responsibility is to integrate air and 
space capabilities across the domains--delivering unmatched global 
advantage as an equal member of the joint team. Ready and resilient 
installations remain vital to the Air Force's ability to generate air, 
space, and cyber effects from a network of globally positioned bases. 
As such, the Air Force manages a difficult balance between installation 
readiness, capability, and capacity with the need to maintain and field 
a credible and affordable force today and into the future. We continue 
to tip the investment scales toward operational capability and 
readiness while taking risk in installations.
                             installations
    Air Force installations serve as the backbone for Air Force 
enduring core missions delivering air, space, and cyberspace 
capabilities--underpinning success and serving as critical enablers of 
Air Force readiness. These force projection platforms send a strategic 
message to allies and adversaries alike; they foster partnership-
building by stationing Airmen side-by-side with our coalition partners 
and enable worldwide accessibility to assist international partners or 
to repel aggression, if necessary. Unfortunately, years of continuous 
combat, a constrained and uncertain fiscal environment, coupled with an 
increasingly complex security environment, have taken their toll on Air 
Force infrastructure and facilities.
    The total Air Force fiscal year 2019 facilities budget request is 
$8.75 billion including military construction (MILCON), facility 
sustainment, restoration, modernization (FSRM), Housing, and legacy 
BRAC cleanup and Environmental Programs. The fiscal year 2019 
President's Budget request builds on the progress made in 2018 to 
restore the readiness of the force and, in alignment with the National 
Defense Strategy, prioritizes long-term competition with China and 
Russia, continues to resource readiness, people, nuclear deterrence and 
modernization while increasing our investments in space, multi-domain 
command and control, air superiority, light attack and science and 
technology. As a result, the Air Force facilities budget must continue 
to support many critical requirements, while maintaining or modernizing 
current requirements.
    In order to stretch our facility and infrastructure funding, the 
Air Force has employed an asset management framework to shape our 
MILCON and FSRM investment strategies. This framework leverages actual 
asset condition data, collected by engineers and craftsman in the field 
and processed through lifecycle analysis software to identify the right 
scope and time and level of investment to sustain our assets at the 
lowest possible lifecycle cost. Working with mission owners, we also 
evaluate the direct impact of every facility on operational employment 
of Air Force air, space, and cyber capabilities. For example, the 
Tanker Airlift Control Center at Scott Air Force Base has a greater 
direct mission impact than other mission support facilities such as the 
base library or comptroller's office. This data driven approach, backed 
by innovative analytics, and technical experts ensure we invest in the 
right mission critical facilities, at the right time, at the right 
scope.
    The Air Force's fiscal year 2019 request includes $1.78 billion in 
military construction requirements, a 9.5 percent decrease from the 
fiscal year 2018 budget request. While the Air Force was able to 
address some of our most critical infrastructure recapitalization needs 
in fiscal year 2017 and 2018, the fiscal year 2019 budget prioritizes 
weapons system beddowns and combatant command support. These projects, 
which include critical fifth generation fighter capability in Europe 
and the Pacific, directly enhance lethality and enable joint readiness 
to maintain the global posture demanded by today's complex security 
environment.
    To assure continued focus on taking care of our Airmen and their 
families, the fiscal year 2019 President's Budget also requests $395 
million for Military Family Housing operations and maintenance and 
construction.
                         military construction
    The requested fiscal year 2019 MILCON program prioritizes efforts 
in four primary categories: Combatant Commander support, facilities and 
supporting infrastructure necessary to beddown new weapons systems, 
investing in cost-effective modernization of research, development, 
test and evaluation facilities and, with a significantly smaller 
investment, in recapitalizing our existing mission critical facilities.
Combatant Command Support
    This year's President's Budget request includes $219 million for 
Combatant Commander requirements. Of this request, $70 million is for 
U.S. Central Command (USCENTCOM), $69 million for U.S. Pacific Command 
(USPACOM), $76 million for U.S. Strategic Command (USSTRATCOM), and $15 
million for U.S. Northern Command (USNORTHCOM). These investments 
represent the Air Force's most direct support to Combatant Commander 
Requirements while preparing for future investments across the Future 
Year Defense Plan (FYDP) ensuring the United States is positioned to 
project power and support efforts to protect American interests across 
the globe, including the Air Force's continued priority on Asia Pacific 
and the European theater.
New Mission Infrastructure
    The fiscal year 2019 President's Budget request includes $887 
million of infrastructure investments to support Air Force 
modernization programs including bedding down the F-35A, KC-46A, and 
Presidential Aircraft Recapitalization weapons systems. The Air Force's 
ability to fully operationalize these new aircraft depends not only on 
acquisition of the aircraft themselves, but also on the construction of 
the aircraft's accompanying hangars, maintenance facilities, training 
facilities, airfields and fuel infrastructure.
    This budget includes $178 million for the beddown of the KC-46A, 
consisting of $166 million at Altus AFB, Oklahoma, the Formal Training 
Unit (FTU), and $12 million at Travis AFB, California, for two depot 
maintenance hangers.
    The Air Force also continues to invest heavily in the beddown of 
the F-35A, ensuring we are adequately postured to compete and win in 
today's strategic environment. The fiscal year 2019 request includes 
$315 million for F-35A facilities at four locations consisting of $40 
million at Luke AFB, Arizona, $62.9 million at Eglin AFB, Florida, 
$63.8 million at Eielson AFB, Alaska; and $148.3 million at Royal Air 
Force (RAF) Lakenheath, United Kingdom.
    In preparation for the Presidential Aircraft Recapitalization 
acquisition, the Air Force's 2019 budget requests $191 million for the 
necessary hangar and maintenance space as well as functions displaced 
by the new construction at Joint Base Andrews, Maryland.
Research, Development, Test & Evaluation Infrastructure
    Our ability to innovate and maintain a technological edge on our 
adversaries depends on necessary Research, Development, Test and 
Evaluation infrastructure. In the fiscal year 2019 President's Budget, 
the Air Force dedicates $225 million to construct new, state-of-the art 
laboratory space at the Massachusetts Institute of Technology's Lincoln 
Laboratory--a federally Funded research and development center that is 
focused on solving problems with direct national security implications. 
Additionally, the Air Force has begun to leverage new authorities to 
meet our current and future research, development, and test range 
needs. For example, our budget requests authorization of a Cyber Test 
facility at Eglin Air Force Base, Florida, and two other projects to 
establish a Joint Simulation Environment capability, one at Edward Air 
Force Base and one at Nellis Air Force Base.
Existing Mission Infrastructure Recapitalization
    This year's President's Budget request also includes $101 million 
directed to the Air National Guard and the Air Force Reserve's most 
critical recapitalization projects. Outside of lab infrastructure, the 
Active Duty includes a request for $25 million in additional funds to 
award a Basic Military Training (BMT) dormitory project, essential to 
the Air Force's sustained efforts to replace outdated and inefficient 
Vietnam War-era buildings and continue to producing the high caliber 
Airmen necessary to operate in the highly-contested warfighting 
environment.
    In total, our fiscal year 2019 request represents a strategic 
balance for capability and capacity, ensuring we are best postured to 
field a ready force today while concurrently modernizing for the 
challenges of tomorrow.
                  european deterrence initiative (edi)
    The Air Force remains committed to the Department's efforts begun 
in 2015 to reassure North Atlantic Treaty Organization Allies and 
European partners of the United States' commitment to their security 
and territorial integrity. Our fiscal year 2019 European Deterrence 
Initiative (EDI) MILCON program shifts our focus from reassurance to 
deterrence and includes five projects spread across four countries to 
enhance bilateral and multilateral military exercises and training on 
land, in the air, and at sea while sustaining a military posture 
reflecting the acknowledgement of long-term competition with Russia. 
Thus, our fiscal year 2019 EDI MILCON program enables the Air Force to 
set theater conditions that provide greater capability for the United 
States and allies to rapidly respond to all threats. The $346 million, 
including $48 million for Planning and Design, requested in MILCON 
Overseas Contingency Operations investment is focused on continuing the 
USEUCOM Commander's efforts to enhance prepositioning options for 
airfields, and weapons and equipment storage areas in Germany, Norway, 
the United Kingdom, and Slovakia.
    The fiscal year 2019 overseas contingency operations funding 
request is limited to projects directly supporting the European 
Deterrence Initiative. Projects supporting operations in the Central 
Command theater are included in our base budget request.
          facility sustainment, restoration, and modernization
    In fiscal year 2019, the Air Force requests $3.4 billion for 
Facilities Sustainment, Restoration, and Modernization, approximately 
11 percent less than last year's request. This request funds Facility 
Sustainment at 80 percent of the Department of Defense sustainment 
model, approximately 7 percent over the previous year, while 
Restoration and Modernization is approximately 61 percent lower than 
fiscal year 2018 levels. The Air Force recognizes a deferred 
maintenance backlog of $33 billion. The Air Force is leveraging FSRM to 
protect readiness and maintain credible capabilities in other core 
missions and increasing FSRM from fiscal year 2019 levels across the 
remainder of the FYDP.
                                housing
    It is imperative we get housing right. Occasionally lost in our 
necessary focus on readiness and lethality is the potential negative 
effects on recruiting and retention of Airmen and their families should 
we allow degradation in the Quality of Life facilities that support our 
Airmen and families.
    The Air Force recruits Airmen that provide combat capabilities 
across multiple domains but we retain the families. Regardless of the 
location, the mission, or the weapon system, our Airmen provide the 
innovation, knowledge, skill, and determination to fly, fight, and win. 
The Air Force strives to provide quality housing on our installations 
to fill the shortfall of available housing in the local communities. 
Adequate housing is often very limited based on where our installations 
are located. As communities have grown up around our bases over the 
past decades, the number of on-base houses the Air Force is required to 
maintain has declined. The remaining homes in the Air Force inventory 
represent the Air Force's commitment to provide Airmen and their 
families with safe and well-maintained housing communities. For 
example, many of our Airmen's first homes are at remote and isolated 
bases.
    The Air Force privatized family housing at each of its stateside 
installations, including Alaska and Hawaii; as such, there are 32 
projects at 63 bases, with an end-state of 53,239 homes and we remain 
focused on long-term oversight and accountability of the sustainment, 
operation, and management of this portfolio.
    Concurrently, the Air Force continues to manage approximately 
15,000 government-owned family housing units at overseas installations. 
Our fiscal year 2019 Family Housing Operations and Maintenance funds 
request of $317 million provides a program that supports daily 
operations, maintenance, and leasing requirements. It allows us to 
sustain adequate units, improve inadequate units, and correct life, 
health, and safety issues. Our $78 million request for Family Housing 
Construction funds improves 130 single family and duplex units on 
Kadena Air Base in Okinawa, Japan and repairs neighborhood parking 
deficiencies at Royal Air Force Lakenheath, United Kingdom. It also 
support development of housing community profile planning documents 
along with planning and design associated with new construction and 
construction improvement projects. Combined, these investments support 
the needs of Airmen and their families, as well as our sister service 
members and their families.
    Similarly, our strategic investment strategy for dormitories will 
enable the Air Force to focus on sustainment of our existing inventory 
to meet the DoD goal of 90 percent adequate dormitory rooms for 
permanent party unaccompanied Airmen, while continuing to support 
Airmen in formal training facilities. Thus, the fiscal year 2019 
President's Budget request includes dormitories to support F-35 
beddown. With Congressional support for our fiscal year 2019 request, 
we will continue to ensure strategic investment in these quality of 
life areas to provide modern housing and dormitory communities, while 
being good stewards of taxpayer funds.
                               conclusion
    Air Force infrastructure and facilities are key enablers of 
lethality and readiness across every core mission area in support of 
the joint team. The fiscal year 2019 President's Budget request 
reflects the hard strategic choices critical to achieving readiness and 
lethality in today's complex security environment. Our fiscal year 2019 
President's Budget request includes MILCON to support Combatant 
Commander urgent priority needs, new weapon system beddown, investment 
in research, development, test and evaluation infrastructure, and 
recapitalization of existing mission critical facilities. We will fully 
leverage every dollar available for facility investment amid the many 
competing and higher budget priorities.
    The Air Force remains committed to our Service members and their 
families. Privatized housing at our stateside installations and 
continued investment in government housing at overseas locations 
provides our families with modern homes and improves their quality of 
life now and into the future. We also maintain our responsibility to 
provide dormitory campuses that support the needs of our unaccompanied 
Service members.
    Additionally, I applaud the committee for their work on achieving 
the two-year bipartisan budget agreement; however, we need your 
continued support for predictable, stable, and flexible budgets to 
enable the Air Force to effectively plan for resources that will 
enhance our readiness and lethality. For our part, we continue to 
carefully scrutinize every dollar we spend. Our commitment to 
efficiencies, a properly sized force structure, and right-sized 
installations will enable us to ensure maximum returns on the Nation's 
investment in her Airmen, who provide our trademark, highly valued 
airpower capabilities for the joint team.

    Senator Boozman. Thank you very much.
    Let me start out. Secretary Niemeyer, I was pleased to see 
your support for the Office of Economic Adjustment, OEA, in 
your prepared testimony.
    OEA's work is important to the state of Arkansas and we are 
currently engaged with OEA on several joint land use studies 
for installations. I believe maintaining support for this 
office is crucial and I'm glad that you view their work in 
collaboration with local communities as important and essential 
as I do. So, again, thank you very much for your support.
    One thing I'd like for us to talk a little bit about and I 
think is so, so important, you know, we struck this bipartisan 
agreement, budget agreement, additional $165 billion for 
Defense, really not a whole lot in MILCON.
    Can you talk about why that's the case? I mean, I know we 
got all these things going on. Readiness is a huge factor. You 
know, we've got depleted munitions and the list goes on and on. 
But truly, as we look forward, these are things--to me, what 
you get into with infrastructure is you can let things go and 
it costs money. You can fix them and it's cheaper. You let them 
go long enough and you actually have to replace it, which 
you're talking about huge costs.
    So if you all would jump in, Mr. Secretary.
    Mr. Niemeyer. Yes, sir. Part of it was a timing issue. We 
normally prepare the budget for fiscal year 2019, we start, you 
know, pretty much throughout the entire year 2018.
    The initial guidance that was given to us within the 
services was a little lower. We leave it up to the services at 
OSD level to go ahead and determine within the guidance given 
how they want to allocate resources, but from my perspective, 
been doing this a long time, the numbers were not really 
provided to us in time for us to be able to make the 
adjustments to those particular investment accounts.
    It does take longer than usual to make adjustments in the 
MILCON accounts versus operations accounts or otherwise and 
that really has a lot to do with it. We just were sent over the 
President's budget by the time we got the final budget 
agreement and ultimately the fiscal year 2018 Omnibus 
Appropriations Bill with the higher dollar amount.
    Senator Boozman. Right. And you'd agree with my reasoning 
that as you let these things go, it just becomes more and more 
expensive, you know, with time?
    Mr. Niemeyer. Yes, sir. We do our best within the building 
to make that clear to our leaders.
    Senator Boozman. Does anybody else want to jump in with 
that or avoid it?
    Admiral Smith. Mr. Chairman, I would agree with you. I 
mean, you addressed it. It's about a balance and there are a 
lot of competing demands and issues going on right now and so 
we've got to balance those.
    As I alluded to in my statement, it's $2 billion for the 
Navy this year. Is that enough? No, sir. Is that twice as much 
as what we've done historically? Yes.
    So we're starting to chip away at it. It took us a long 
time to get here. It's going to take us time to get out of it, 
but, you know, Ranking Member Schatz and I talked about the 
other day putting together the shipyard plan. So we understand 
it's a challenge. We understand it's an issue. We're not going 
to fix it overnight but we are aggressively attacking it, sir.
    Senator Boozman. Let me ask you about something else that I 
think's really important.
    As you're aware, Congress and OMB have opposing views on 
incremental funding for MILCON projects. Congress prefers to 
incrementally fund large MILCON projects to ensure the maximum 
utility for each dollar appropriated in a given year. 
Incrementation frees up money that would otherwise not be 
executed until future years and allows DOD to fund critical 
unfunded priorities that can be executed in the budget year.
    OMB has directed that any incremental project not executed 
until all increments have been funded, unnecessarily delaying 
the project and defeating the purpose of incremental funding. 
Tell us your opinion, as best you can.
    Mr. Niemeyer. Thanks for that last caveat.
    Senator Boozman. Well, tell us the pros and cons of that. 
Again, I've laid out the pros.
    Mr. Niemeyer. Senator, that's a fantastic issue and having 
been on the committee staff, I understand the desire to want to 
spend dollars prudently, and it is tough for a large military 
construction project to hold potentially hundreds of millions 
of dollars until we get a chance to expense that in the future. 
So I see both sides.
    Now that I'm in the Department of Defense, I understand 
that when Congress makes a decision to unilaterally 
incrementally fund a project to allow free-up dollars for other 
priorities, it does create a budget nightmare for us as we have 
to then go find that allocation somewhere else in the 
subsequent year.
    So I think that's what OMB was trying to get at, was really 
trying to ensure budget accountability for each project we send 
over is fully funded, while we also understand congressional 
concerns about, okay, we've got these unfunded priorities that 
come over, we need to fund those, too. They're urgent, as well.
    I can see both sides. I'm not sure the best way forward. I 
do believe a good policy would be to embrace that over certain 
dollar amounts, whether it be a $100 million or whatever the 
dollar amount is, when we know we're not going to expense the 
majority of those dollars in the first couple years, allow us 
the flexibility to bring to you a request that would provide 
only a partial appropriation but a full authorization.
    That to me probably, having been around this for a long 
time, would be the best way to do that, but that's still a 
discussion that needs to happen between us, between OMB, and 
the committees.
    Senator Boozman. Good. Thank you. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Lieutenant General Bingham, can you just walk us through 
the sort of medium-term MILCON needs in Hawaii? I'm thinking 
Scofield, Wheeler, and PTA, and why they're important for 
readiness.
    General Bingham. Yes, thank you, Senator Schatz.
    For sure, all of the facilities in the Pacific Theater are 
important to our lethality and our readiness, not only in 
Hawaii but certainly in Korea, as well, and so what we have 
taken upon is an investment plan for Hawaii's infrastructure 
revitalization. You and I talked about that a little bit.
    That includes operational facilities, maintenance 
facilities, Pohakuloa training area, to name a few. It will 
take a substantive amount of time, but we have put about $350 
million wedge in the FYDP beginning in fiscal year 2020, and so 
that theater is vitally critical to our readiness around the 
globe and specifically in that theater. So we are committed to 
its revitalization.
    Senator Schatz. Thank you. Vice Admiral Smith, you and I 
have been talking about Red Hill for a little while now.
    For the benefit of the members of the committee, can you 
just describe what Red Hill is and why it's so important for 
the Navy and the Pacific?
    Admiral Smith. Yes, sir. So Red Hill is our strategic fuel 
reserve in Hawaii that we rely on significantly in the Pacific 
for any actions that we might have to take. It's up on a hill. 
You can't see it. It's gravity-fed down, so if you lose power 
or anything else, it's got the ability to sustain the fleet.
    A couple of years ago, we discovered a leak in one of the 
tanks, which was from a repair that was happening. That's been 
fixed, but obviously it's a significant concern to the citizens 
of Hawaii and on the island of Oahu. It sits near an aquifer 
that provides the fresh water and so we're working very closely 
with the state of Hawaii and the Water Board, Department of 
Health, and the Senator and his colleagues to make sure that we 
address this, to conduct the appropriate repairs and at an 
appropriate cost to ensure this doesn't happen again.
    Senator Schatz. Thank you, Vice Admiral Smith.
    This is a question for Lieutenant General Bingham and Major 
General Green. I want to talk about how MILCON dollars are 
allocated across components and this gets a little technical, 
so you can correct me if I get something wrong, but my 
understanding is that the Real Property Asset Database is the 
way you determine the allocation between the Active and Reserve 
components as it relates to MILCON, and I'm not sure.
    It seems to me that that should be a factor but not the 
only factor, especially given the sort of pace and the change 
in role that the different service branches have undertaken 
over the last 15 years, that if you're still looking at real 
property as the only way to determine future MILCON, you're not 
recognizing that between Active and Reserve, everything has 
changed over the last 15 years.
    So I guess the first question is, am I getting it right in 
terms of the way you make your allocations for future MILCON 
and if I am, ought we to change that? I'll start with General 
Bingham.
    General Bingham. Thank you, Ranking Member Schatz. 
Partially true. We use the MILCON process inside of the 
Headquarters DA where we bring about or bring together all the 
stakeholders and that's a combination of our Active component 
commands, our Reserve and our Guard affiliated commands, as 
well, and so what we look at is we look at our installation 
status report.
    We do in fact understand what the condition of our worst 
facilities are throughout our portfolio, but we rack and stack, 
if you will, what the needs are for each of the services and we 
basically have a voting process where we have a rank and file.
    Senator Schatz. Right. So, and I'll move to General Green 
after I make this comment, it seems to me that if it's based on 
real property assets, that would make a lot of sense if it was 
an R&M schedule, but if you're talking about new construction, 
then what you already have in inventory is not the way you 
should determine what else you're building.
    So I just want you to, you know, consider whether this 
process reflects the current state of affairs. General Green 
with the final comment.
    General Green. Yes, sir. I think it does reflect the 
current state of affairs as a starting point for discussion.
    But, for example, when we're bedding down a new aircraft, 
like a C-17 at a reserve base, last year the Reserves got more 
than what would be considered a fair share because we're 
bedding down a new mission. So we do accommodate the things 
that I believe you're alluding to.
    Another challenge for us today is, as we think about moving 
the overseas contingency funds into the base, those overseas 
facilities support all of our components, Active, Guard, and 
Reserve, and so when we move it to the base, it's counted 
against the Active Duty side and therefore you would need to 
also raise the Reserve component and, in fact, those facilities 
support all of us.
    Thank you.
    Senator Schatz. Okay. Thank you.
    Senator Boozman. Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    I'd like to thank all the witnesses for being here today 
and for your service. I want to express my strong support for 
several projects in my state. One is a National Guard Readiness 
Center in Fargo, which is very much needed. We've had a very 
heavy deployment and ops tempo in our Guard in the War on 
Terror and this is a facility that is very much needed.
    Then, also, for an upgrade to the helicopter facility at 
the Minot Air Force Base, which actually serves the missile 
fields for the ICBMs. They're still flying Huey helicopters, if 
you can believe that. They were probably constructed in the 
1960s, and they've kept them flying and they're out there in 
all kind of weather covering a huge area. We're talking about 
our MPs, and we need a new facility so that we can put the new 
helicopter, Black Hawks, in a facility that's large enough to 
house them. But it's amazing the work around these guys have 
made work. Still flying those Huey helicopters.
    When I was governor, we started with Hueys and graduated to 
Black Hawks and it's an iconic aircraft but it's older than the 
people flying them. So that's a badly-needed upgrade.
    Major General Green, along the lines of upgrades, Minot Air 
Force Base, Dual Nuclear Mission, Intercontinental Ballistic 
Missile (ICBMs), and B-52 with both conventional nuclear 
capability. The power lines that go to those ICBM missile 
fields were probably put in in the 1960s, I would guess, and as 
we work to upgrade the ICBMs, we're going to need to also 
upgrade those power lines.
    What arrangements are you making to do that?
    General Green. Senator, we look at the upgrade of the 
missile fields for the GSBD as we plan the future requirement. 
All of those considerations are going to be a part of that 
beddown of the new missile systems.
    So we're looking at it. There's not an immediate 
requirement today. They're performing adequately today, but we 
recognize that it's something that we need to look forward to 
as we think about the next generation of missiles.
    Senator Hoeven. Okay. So you're working with local electric 
providers on that. They're informed, and you're determining 
exactly what is needed and when?
    General Green. Yes, sir.
    Senator Hoeven. All right. In a Future Years Defense 
Program, you don't specify upgrades to Minot's weapon storage 
area, and again they have both conventional and nuclear weapons 
there, but there are other nuclear upgrades at some of the 
other facilities.
    So my question would be when would Minot be in line for 
upgraded weapons storage?
    General Green. Sir, as you know, we're going to redo all of 
the weapons storage facilities. Minot is outside of the FY DP. 
So it is there in our overall program and, in fact, we briefed 
committee staff members at different times. So it's just 
residing outside of the FY DP. It is because it's a dual-use, 
the B-52s as well as the missile fields. It will be out last, 
our final WSF, and it will be the largest one.
    Senator Hoeven. Secretary Niemeyer, do we have adequate air 
space and ranges to support unmanned flights and the ability to 
test various sensors that unmanned aircraft carry onboard?
    Mr. Niemeyer. Sir, we have resources available for u 
unmanned flight. I think the concern we have right now 
nationally, I know North Dakota's leading the lead in the 
change in FAA regulations. I know we're doing a lot of test 
activities up there.
    We do need nationally an updated FAA plan to allow for 
unmanned systems. We do have some training concerns around the 
country that we have restricted air spaces and other places. I 
think that's probably the biggest concern we have right now as 
far as air space for unmanned systems.
    Senator Hoeven. Right. And we have not only Guard flying 
them, we have Air Force flying them, and Customs and Board 
Protection flying them.
    Mr. Niemeyer. Yes, sir.
    Senator Hoeven. And 900 miles of border responsibility that 
we use.
    Mr. Niemeyer. Yes.
    Senator Hoeven. So we certainly have the capacity there in 
Grand Forks and the interface with the technology part, Grand 
Skies, to do a lot of this sensor testing and so forth, air 
space restrictions and so forth, that we've worked to get--
restrictions isn't the right word. Opportunities to fly 
unmanned.
    What are the biggest infrastructure challenges to 
increasing the number of unmanned flights as far as an aircraft 
in the unmanned inventory for DOD?
    Mr. Niemeyer. I would say making sure we've got a basing 
strategy in place. Right now, we've got a lot of our systems 
are flying overseas. We don't quite have plans in place that 
when they do come home, hopefully peace will break out around 
the world at some point. We can bring them back to the United 
States.
    I think we still have work to do within around the country 
where best to place those and what locations would best support 
their continued training and development next generation of 
capabilities for that system.
    Senator Hoeven. Well, and that's key, isn't it, because--
we've got to be able to fly them in the NAS for your training 
and development, not only the aircraft themselves but sensors 
and so now you're talking about either restricted air space or 
conquered air space use and ultimately we've got to get to 
conquering air space.
    Mr. Niemeyer. Yes, sir.
    Senator Hoeven. And so that's something that we can work 
with you to develop and are working to develop.
    Any other thoughts you have in terms of how we build that?
    Mr. Niemeyer. I would love to have the opportunity. I hate 
to put another shameless plug in, but I'd love to be able to 
take a look at the entire enterprise for unmanned systems 
through a process where I can take those locations that are 
most ideally suited for us to be able to support those systems 
long term.
    Right now for us, a base realignment and closure process 
allows that enterprise look, at emerging technologies like 
that, and where best to place them.
    Senator Hoeven. Are you looking at it without that type 
of--in other words, are you actively doing that without a BRAC 
process?
    Mr. Niemeyer. The services are doing the best they can. As 
you know, the Air Force has a basing process to try to identify 
locations. I do believe there's some encumbrances to that 
particular process that could be solved by taking a wider and 
more comprehensive enterprise look.
    Senator Hoeven. Okay. Thank you. Again, thanks to all of 
you, appreciate it.
    Senator Boozman. Senator Udall.
    Senator Udall. Thank you, Mr. Chairman, and thank you, 
Ranking Senator Schatz, and really appreciate all of you being 
here today with us.
    General Green, I'd like to start by having a conversation 
about the new Space Rapid Capabilities Office at Kirtland Air 
Force Base.
    The new Space RCO is supposed to play an important role in 
the Air Force's attempt to leverage public/private partnerships 
and reduce the time to launch national security assets into 
space. While Space RCO is just starting to get off the ground, 
I believe that it will need funding for new military 
construction in order to truly scale up and meet the Air 
Force's needs.
    For example, there's a lack of building space adjacent to 
Kirtland AFRL for companies to utilize. There is also a need 
for secure compartmentalized information space, both for the 
Space RCO and private companies, to utilize in support of the 
Air Force in Albuquerque, and I'm sure there are many other 
needs.
    Will you make it a priority to stand up the Space RCO 
quickly and expedite the military construction priorities in 
order to meet the Secretary of the Air Force's goals for space 
launches?
    General Green. Yes, sir, we will. As you likely know, we've 
already identified facilities today as the initial short-term 
options and will be studying all of the things that you 
described for the way ahead. Yes, sir.
    Senator Udall. Great. Do you agree that ensuring access to 
space is a national security priority and that a successful 
Space RCO will be a key component of this effort?
    General Green. Yes, sir, I do.
    Senator Udall. Great. And I look forward----
    General Green. More importantly, the Secretary of the Air 
Force does.
    Senator Udall. You know, that's important, too, and I also 
look forward to working with you and the Secretary on this.
    General Bingham, great to see you again. You announced last 
year in this committee that White Sands Missile Range, after a 
long drought of military construction, would be moving forward 
with the Information Systems Facility included in this year's 
budget. The project was originally slated for 2023 but the 
needs for better data management made this project a major 
priority for the Army and for DOD.
    General Bingham, how will this new facility improve White 
Sands Missile Range ability to manage and acquire data for 
testing?
    General Bingham. Thank you, Senator Udall, and great to see 
you again, as well.
    As you know, I haven't been stationed out at White Sands 
for about 21 months. I have really come to appreciate that it's 
an absolute national treasure there.
    We will be making good use of this new information systems 
facility. It will actually displace seven separate facilities, 
so that will make it more efficiently use of information 
management and its communications capability there on the 
range. So I know it'll be quite an asset for the men and women 
who will use it.
    Senator Udall. Appreciate that answer. And do you believe 
that the new facility could enable White Sands to be a more 
efficient user of the air space?
    General Bingham. Absolutely.
    Senator Udall. Mr. Niemeyer, you know New Mexico well. New 
Mexico has proudly supported its military bases and I believe 
the President's Military Construction Budget does a good job 
supporting the troops who work and train in New Mexico.
    The budget in New Mexico is also critical to address some 
of the training shortfalls for pilots and then this question is 
for Mr. Niemeyer, General Bingham, and General Green.
    The pilot shortage is a very serious issue. I think many of 
you have talked about that before. In New Mexico, the 
Department of Defense and all the military branches who utilize 
WSMR need to work together to improve this situation.
    The F-16 training pipeline through Holloman Air Force Base 
is one important component to address the pilot shortage and 
for years now, I've pressed all stakeholders to work with White 
Sands to do a better job about deconflicting air space with 
Holloman in order to ensure access for Holloman's pilots.
    In my opinion, the Air Force should move quickly to make 
the F-16 basing permanent at Holloman. Moving to another base 
will likely cost additional money for MILCON and will sap the 
time from the airmen working to alleviate the pilot shortage.
    Do you agree that the Air Force needs to do everything it 
can to improve opportunities for training and should work to 
prevent unneeded future MILCON spending? Mr. Niemeyer, why 
don't we start with you?
    Mr. Niemeyer. I'll talk more to what I see as what happens 
in New Mexico happens around the country where you have a 
friendly competition between test requirements and training 
requirements. White Sands Missile Range (WSMR) has a long 
history of trying to balance that.
    As we manage a very important part of our national air 
space and training and testing infrastructure, the WSMR, my job 
is to work with both services to make sure that we can support 
the test requirements, which there's no other test range like 
this in the world, what we have at WSMR, along with what is a 
very, very desirable piece of air space for training. We work 
every day to try to balance that within the Department of 
Defense.
    I'll leave it up to the services to talk specifically about 
the F-16.
    Senator Udall. Just brief answers, I'm out of time, but 
General Bingham and General Green.
    General Bingham. Certainly we want to work with our Air 
Force comrades and do on a repeated basis out at White Sands to 
do as Secretary Niemeyer mentioned, to deconflict that air 
space out there, and I think we've got a good system to do 
that.
    Senator Udall. Great. Thank you. General Green.
    General Green. Yes, sir. We agree about the partnership 
with regard to the air space and certainly as we go through the 
basing process, the Secretary will announce some candidates 
this year and we agree with the need to minimize MILCON.
    Senator Udall. Thank you very much. Thank you, Mr. 
Chairman, for your courtesy.
    Senator Boozman. Thank you.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you. Let me first 
commend and congratulate you on your assumption of the chairman 
of this committee.
    Senator Boozman. Well, we've got big shoes to fill but 
we're going to do our best.
    Senator Moran. I knew you'd say that. That's why I 
complimented you.
    [Laughter.]
    Senator Moran. And let me also thank the staff. Patrick and 
his crew have been great to work with and I'm very appreciative 
of their help and I look forward to being a valuable and active 
member of this subcommittee, and I appreciate Senator Schatz's 
comments and I was trying to think if you're my favorite 
Ranking Member, but then I have two others that I would have 
found. Don't point at Tester. None of them are Tester.
    [Laughter.]
    Senator Moran. Let me start with Ft. Leavenworth, the 35th 
ID Readiness Center.
    Secretary Niemeyer, I appreciate the chance I've had to 
work with you and the services that you attempt to work with 
and coordinate, and I thank you for that relationship.
    Let me ask you and General Bingham. Our committee provided 
a fiscal year 2017 $31.9 million for a new readiness center at 
Ft. Leavenworth. Only this last February has the National Guard 
Bureau released a Request for Proposal to award a contract for 
construction.
    I'm not here to analyze why that's the case. I just would 
like to know if you and General Bingham would commit to me to 
doing everything you can to see that we make up for the lost 
time and that this project proceeds to its rapid completion.
    Mr. Niemeyer. Yes, sir, I will.
    Senator Moran. Thank you. General Bingham.
    General Bingham. Thank you. We appreciate the opportunity 
through our Army National Guard Master Transformation Plan for 
Readiness Centers. We are definitely very much wanting to 
improve the readiness of all of those facilities and currently 
we are using sustainment dollars as well as R&M dollars and 
MILCON dollars to do that.
    Senator Moran. Thank you, ma'am. Let me now talk about 
Sunflower Army Ammunition Plant, not a conversation that we've 
not had previously.
    This begins in 2005 when the Army conveyed Sunflower Army 
Ammunition Plant, which is over 9,000 acres of land in Johnson 
County, Kansas, the suburbs of Kansas City, on the Kansas side, 
to Sunflower Redevelopment. This has drug on a very long time, 
10 years of back and forth on remediation of the land.
    I convened a meeting in 2015 with the Army and brought 
officials to Sunflower trying to get everyone on the same page. 
Of course that commitment was made to me and to the people in 
the room. Three years later, I view the disconnect continues. 
fiscal year 2018 MILCON construction has report language, bill 
language that directs the Army to conduct an assessment to 
ensure that the redevelopment priorities are synchronized with 
the developer and the Army.
    I don't know that the situation today is any better and it 
doesn't seem like anybody is taking charge. It's so slow. The 
project managers are running out of funds and the work stops. 
It's a waste of time and money.
    The Army apparently will be at Sunflower for another decade 
cleaning up the site. It's just such a long haul and I would 
ask you, General Bingham, I'd like to request that you visit 
with me Sunflower and get a picture for what I'm talking about 
and then I would ask you to follow up with me that you could 
tell me the facts about what the total expenditure on 
remediation by the Army has--what's been completed and at what 
cost and I need to also highlight for you the specific need for 
removal of concrete on the site.
    So, first of all, I want to highlight the concrete, second 
would like you to agree to come with me and see the facility, 
see the location, and, thirdly, if you could tell me at some 
point in the near future the amount of money spent on 
remediation, where we are in the process, and how you see it 
being brought to a conclusion.
    General Bingham. Thank you, Senator Moran. I appreciate 
that question. I just do want to assure you, though, that the 
Army is committed to fulfilling our obligation to clean up 
Sunflower.
    In point of fact, we are in a three-phase operation. As you 
mentioned, it has taken a long time. We're currently in Phase 1 
that began in earnest about 4 years ago, which deals with our 
planning and documentation.
    Our second phase, after we complete this hopefully next 
year, we'll move into the execution phase and be able to see 
that remediation through to completion, but, yes, I'd be 
honored to accompany you to visit that site and we'll schedule 
that with your planner.
    Senator Moran. Thank you for your response.
    Secretary, you instructed me, probably in your words you 
suggested to me that I have a conversation on this topic with 
the Secretary of Army. That has happened and he indicated an 
awareness of the issue and indicated a willingness to become 
more aware.
    I would ask you if you have any other suggestions of how I 
can better address this issue in trying to get the Army to move 
more rapidly.
    Mr. Niemeyer. As you were discussing with General Bingham, 
I made a note to myself to see. I know General Bingham, the 
last thing she wants to hear is where OSD staff can assist. I'm 
not sure how much we both can provide but I made a note to 
myself to making sure that my staff, my expertise that I have 
on my staff can be available to General Bingham and yourself.
    Senator Moran. Assuming that's fine with General Bingham, 
I'm pleased with that because you have an expertise and a 
background in this arena and I would welcome your help.
    Mr. Chairman, thank you. I would concur with you, at least 
your line of questioning, about incremental financing. We've 
got to get to the point in my view in which we can begin 
funding, even though we don't have all funding, and I would 
encourage the Secretary's Office and the departments to pursue 
that with this Administration.
    Thank you.
    Senator Boozman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman. I want to thank 
you all for being here.
    By the way, Mr. Chairman, congratulations on the new 
subcommittee.
    Senator Boozman. Well, thank you, and I'm going to miss you 
dearly.
    Senator Tester. I'm going to miss you, too. You are my 
favorite chairman, I'm proud to say.
    [Laughter.]
    Senator Tester. But thank you very, very much.
    Senator Boozman. As you talk about your MILCON project.
    Senator Tester. Exactly right. General Green, thank you. 
Thank you all for being here. I understand that you're going 
to--my crack staff tells me you're going to hang up your cleats 
here at some moment in time this year. I want to say thank you 
for your service and I've looked forward to working with you 
and we look forward to working with the person who is going to 
take your place.
    I want to talk about the ICBMs a little bit. It's what 
happens when you have Hogan and Tester on the same 
Appropriations Committee. I want to talk about the weapons 
storage facility and those projects.
    F.E. Warren and Malmstrom is moving forward, although 
because of potentially some issues that have come up at F.E. 
Warren, we have slid from 19 to 20, and I don't want to put 
words in your mouth. You can correct me on that.
    Could you give me a brief update, a very brief update on 
what's going on with F.E. Warren, if it is going ahead of where 
it was initially scheduled, or are we behind? Do we have a 
potential slide another year or could we potentially even pick 
up a year and start this project towards the end of 2019?
    General Green. Yes, sir. So we've got one more request for 
reauthorization to come over and the appropriation addition for 
the F.E. Warren. We've worked with your staff about that and 
that should put it on track.
    Where we've been importantly is the Commander of Air Force 
Global Strike Command, the Commander of Air Force Materiel 
Command convened a working group, and they went very 
deliberately through each and every requirement of the 
facilities, and I won't go through all the details, but what we 
came out with in the end is really the validation of many of 
the requirements from security, operational, and safety. Those 
were the three big rocks.
    So I think we have a good definition of what we need in the 
future. We've made the adjustments that we can within the F.E. 
Warren and we're ready to move forward and we're confident that 
we can continue to learn.
    Senator Tester. But have you started construction on Warren 
yet?
    General Green. No, sir, we have not awarded the contract.
    Senator Tester. But you anticipate now that that contract 
will start on time and end on time and we'll get to Malmstrom 
Air Force on time?
    General Green. Yes, sir. I'm confident we'll get to 
Malmstrom Air Force on time.
    Senator Tester. Okay. Which is 2020.
    General Green. Yes, sir.
    Senator Tester. Secretary Niemeyer, look, there are 
regional threats and emerging global threats, quite frankly, 
all over the world. We have had a tendency, and I still think 
we do, to disproportionately foot the bill in both manpower and 
equipment. We're talking about equipment here today.
    I think it is our obligation as the leader of the Free 
World to do our fair share and maybe even a little more, but 
the question is, is time and time again, I think we put 
ourselves on the line, taxpayer dollars, American lives. I 
don't think there's any doubt about that.
    Meanwhile, our allies are freed up to spend a lot of those 
dollars that they maybe should be spending on some of the stuff 
we're spending on education and infrastructure and research and 
development and all the things we need to spend money on, too.
    So the question is, in terms of the Overseas MILCON, does 
this budget exacerbate our allies over-reliance on the U.S. 
military to provide their security, and could you tell me why 
or why it doesn't do that?
    Mr. Niemeyer. So we've spent a lot of time in the last 
year, Secretary of Defense has, working with NATO allies to 
ensure that we do have some concerns with the size of the 
military, the spending by our allies. We continue to make those 
points that we do need to see a greater commitment on the part 
of our NATO allies particularly in providing for their defense 
as well as the common defense of NATO.
    We do have still requirements that we are asking for your 
support for within the Overseas Contingency Construction 
Account for select projects that we believe are needed to help 
us with allies which are increasing their support for us and in 
countries we haven't traditionally invested in.
    We do believe those are prudent investments to provide the 
Secretary of Defense his goal within the National Defense 
Strategy to provide for more adaptive and disbursed basing 
opportunities to allow us to be able to work with a greater 
number of allies in Europe specifically as we try to deter 
Russian aggression.
    Senator Tester. So to put it very bluntly then, do you 
believe that this budget is a fair balance between what we're 
spending and what our allies are spending as far as the threats 
that are occurring around the world?
    Mr. Niemeyer. I have not made personally the determination 
whether it's fair. I do know why we are asking for the funds 
and why they are in concert with the National Defense Strategy.
    Senator Tester. Okay. Thank you, Mr. Chairman. Thank you.
    Senator Boozman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. Let me add my 
congratulations to you as you take over the chairmanship of 
this important subcommittee, and I can assure you that at this 
particular hearing that you and the Ranking Member are the 
favorites of all of us here on the panel both before us and the 
panel of your colleagues. But truly it is great to have you 
here.
    Admiral Smith, as you know, Maine is the proud home of the 
Portsmouth Naval Shipyard in Kittery and I'm very pleased that 
the Navy and the Defense Logistics Agency have requested $162 
million in total for much-needed improvements at the shipyard 
this year.
    These projects will help ensure that the Portsmouth Naval 
Shipyard can effectively dock both Los Angeles Class and 
Virginia Class submarines and conduct their maintenance, 
support the requirements to execute the Los Angeles Class 
service life extensions in the years to come, and expand an 
outdated warehouse facility that will help the shipyard 
receive, inspect, and distribute submarine components for 
worldwide fleet support.
    These modernization and infrastructure investments are 
desperately needed. They've been needed for a long time to help 
the shipyard conduct the availabilities necessary to improve 
and maintain fleet readiness. So it's very much a step in the 
right direction.
    I'm particularly supportive of the more mature dry dock 
revitalization portion of the Navy's overall shipyard 
modernization plan. That will restore 67 of the 68 deferred 
maintenance availabilities over 20 years. So that's a great 
return on investment for the Navy.
    My one question for you, and I am getting to a question, is 
that the modernization plan was completed before there was the 
additional funding and in light of the fact that the size of 
the fleet is likely to be larger than the plan's initial 
assumptions, are you taking another look at the adequacy of the 
current modernization plan?
    Admiral Smith. Senator, yes, that shipyard is great. I've 
had a chance to visit it several times and it's great to be 
able to see that we're putting the resources into it that we 
need to put into not only that shipyard but all four shipyards.
    Yes, you're correct. The shipyard optimization plan came 
out before we identified where we need to grow to 355. So we 
are relooking that with a growth of the fleet. What's in the 
plan right now, what meets the future requirement, what doesn't 
meet the future requirement, what's that delta, what has to be 
added or changed to do that? So that analysis is going on, 
being led by Naval Sea Systems Command right now, ma'am.
    Senator Collins. I'm very glad to hear that. The other 
issue I wanted to follow up on Senator Moran raised and that 
has to do with incremental funding.
    One of the projects for the Portsmouth Naval Shipyard this 
fiscal year is to build a super flood basin at Dry Dock Number 
1 and the long-term goal is to make it fully capable of docking 
the Virginia Class submarine and eventually this is going to 
require building a partition within the super flood basin which 
the Navy is planning to fund in fiscal year 2021.
    So I understand the cost of the project is what has caused 
the Navy to split the project into two phased projects over 
fiscal year 2021 and 2022, but my concern is that a phased 
approach could introduce unacceptable risks to the tight 
schedule required to make sure that the project is complete 
when the Navy needs it for fleet maintenance beginning in 
January of 2024.
    So rather than splitting the project, which significantly 
increases the risks to the scheduled completion date, would the 
Navy consider two options? One, either fully funding it in a 
single fiscal year as a single project rather than a two-phased 
project, or, if that isn't feasible, providing incremental 
funding at 65 percent in fiscal year 2021 and then 35 percent 
in fiscal year 2022?
    Admiral Smith. Yes, ma'am. Thank you. So as you state, this 
is going to be an expensive project but it's much needed. We 
have not built a dry dock in 30 years. So we're going through 
the engineering analysis right now to figure out how to 
properly do this. That engineering analysis will help us 
determine what is the best way to fund that to make sure we get 
that done when it's needed?
    Senator Collins. Great. I would ask that you keep us 
informed as that engineering study progresses.
    Admiral Smith. Yes, ma'am. Absolutely.
    Senator Collins. Thank you, and thank you all for your 
service. Thank you, Mr. Chairman.
    Senator Boozman. Thank you. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Welcome 
all of you. Thank you very much for being here. Admiral Smith, 
good to see you again.
    I wanted to stay on the topic that Senator Collins raised 
and ask the flip side of it coming from the perspective of a 
state with a private shipyard. I'm very supportive of the 
efforts to try to make up for this deferred maintenance at our 
public shipyards, but, as we know, that's a long-term project, 
and even if you stay on schedule, the Navy has projected that 
there's going to be a large percentage of maintenance work that 
just simply won't be able to be done at the public shipyards.
    Thus it brings me to my question. As you know, we've got 
this workload valley in Connecticut at Electric Boat as we seek 
to ramp up to the point at which we're going to be producing 
many times two submarines in that yard at any one given time 
and, you know, we are very worried about the likelihood of 
losing some really important skilled workforce during that 
period of valley and so we've talked previously about 
maintenance projects, like the Boise, and I'm glad that that 
contract's got awarded to the wrong shipyard but Virginia does 
decent work, as well.
    The question is just this. Wouldn't it be wise to fill this 
private yard workforce valley now with some backlog maintenance 
to make sure that that trained workforce is there when we have 
that ramp-up as the Columbia starts to come into view?
    Admiral Smith. Thank you, Senator, for the question, and, 
sir, it's good to see you again.
    Obviously the readiness of our fleet is Number 1 priority 
and also the skill and the talent of our nuclear repair force 
in both our public yards and our private yards.
    I know that the Navy is looking now at--I mean, we look at 
how to properly balance across our public yards and I know 
we're looking to how to potentially use the private yards and, 
if I may, I'd like to take the remainder of that question for 
the record and get back to you with more detail.
    Senator Murphy. I'd be happy to do that. My second question 
is still focused on Groton and New London and I'll bring in 
Secretary Niemeyer for this one. This is a really good study 
that was done by the Navy regarding the housing situation in 
Southeastern Connecticut and so wanted to just get your 
thoughts on how the Navy and the Department of Defense can 
continue to work with us in Southeastern Connecticut to solve 
what is going to not be a crisis but a challenge moving forward 
because, as you're aware, Navy's going to start production on 
Columbia in 2021 and is considering adding a third Virginia 
Class and so you're going to have two boats under construction 
and each boat is going to have a pre-commissioning crew, about 
250.
    Thus conservatively, we're talking about an additional 500 
families, not to mention all the junior sailors that are coming 
in, at the same time that EB is ramping up production. So 
you're requiring more and more workforce housing.
    So this report is a good start, but I wanted to ask you 
about, you know, plans to do a broader analysis of the impacts 
expected over the next few decades on Southeastern Connecticut 
and wanted to ask for your commitment to work with us to try to 
come up with some really good plans to make sure that we have 
adequate housing for all of the Navy personnel that are going 
to be onsite.
    I understand, you know, your book is not to make sure that 
EB has private sector housing but their ramp-up is going to 
affect the availability of affordable housing for Navy 
personnel, as well.
    Admiral Smith. Yes, Senator, thank you. Well, given that my 
nephew works at EB, I'm also interested. But, no, you have my 
commitment. I was actually on the phone yesterday with the 
executive officer for the base talking just about housing. So, 
yes, you have our commitment as we move forward to make sure 
that we're working together to make sure we can help solve what 
is potentially a housing challenge here in the future.
    Senator Murphy. Secretary Niemeyer.
    Mr. Niemeyer. So what we also have at the OSD level, we 
have the Office of Economic Adjustment that allows us to work 
with communities and states to look at all collectively what 
does an increase in DOD activity, potentially what can we do to 
mitigate the impacts, to work with the community to see what 
improvements can be made and look forward to using that office 
to work with you on assessing what potentially can be done in 
Southeast Connecticut.
    Senator Murphy. We're ready. As you know, the state has 
made unprecedented investments in the sub-base and we're going 
to do whatever is necessary to make sure that we have what our 
Navy workforce and our private sector workforce needs but doing 
that in coordination with both of you and others is helpful.
    So thank you, Mr. Chairman. Welcome to the committee.
    Mr. Niemeyer. One thing, Senator Murphy. I do appreciate 
the opportunity to testify before the next generation. My 17-
year-old son might be asleep by now. So it's a testament.
    Senator Murphy. I'm going to ask him how I did when I'm 
done here. So thanks, guys.
    Senator Boozman. The Senator from Alaska, Ms. Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman, and 
congratulations to you. I think you and your Ranking Member 
will learn that when my priorities come up, they always start 
with an A and it's not Arkansas, no offense, but it's Arctic, 
and my friend from Hawaii, I think, has learned that this big 
Pacific Ocean has warm spots and colder spots, but from the 
Defense perspective, it is clearly an area of interest.
    So I want to start my questions directed to you, Secretary 
Niemeyer, and this relates to our Arctic Strategy. Last May, 
Deputy Secretary of Defense Work spoke about the Arctic not 
being a central concern in the 2014 National Defense Strategy.
    We now have the newly-published 2018 National Defense 
Strategy Summary. It also does not specifically highlight the 
Arctic Region nor address the Arctic Infrastructure. So I'd 
like it if you can provide me just a brief update on the 
Department of Defense's vision for posture and infrastructure 
in the Arctic Region and I'll ask specifically, when I'm 
talking about infrastructure, it's more than just installation.
    I think it was just a couple days ago, I read an article 
about Russia's plans to lay transArctic fiber cable that will 
link the military installations starting in Western Russia, 
bordering Norway, across the Arctic, to the Pacific, and 
supposedly it's going to allow them real-time monitoring of the 
operational situation in the Arctic.
    As you know, we're pretty limited in the U.S. Arctic when 
it comes to infrastructure in general. We're making some good 
developments with fiber, but should we be prioritizing linking 
our installations with high-speed fiber?
    So we don't have too much time to talk about it, but if you 
can give me your views, that would be appreciated.
    Mr. Niemeyer. Yes, ma'am. I'll keep it short and sweet. The 
questions about an Arctic policy, that's a little bit beyond my 
capability versus the DOD position. I'm the Installations and 
Energy guy.
    I will say that from our perspective in our world, Alaska's 
the center of the known universe right now.
    Senator Murkowski. Music to my ears.
    Mr. Niemeyer. We have a missile field we're putting in, the 
fourth missile field at Greeley. We have a billion dollar long-
range munitions radar that we're trying to get installed. We 
have a backup power supply in this year's budget to go ahead 
and support that.
    Ellison's get two F-35 squadrons. I'm actually going up to 
Alaska in June specifically because I want to make sure that 
these projects are on track. They're absolutely critical to our 
nation's defense. So I can't really attest to the fact of that.
    I do know that the National Defense Strategy says that our 
homeland's along our sanctuary. Alaska's part of our homeland. 
I do know that it is very high on my priority list for making 
sure that we are delivering capabilities within the state of 
Alaska.
    We're also working on innovative potential power solutions 
to include what we can do for more dedicated power sources for 
our critical assets there. We've been studying that area for 
small modular reactors for years. We do believe that there's a 
potential for us to be able to take advantage of the emerging 
technologies there.
    So Alaska is always in our thoughts as far as what we're 
working day to day within my portfolio.
    Senator Murkowski. Well, I'd like for the conversation 
about just that broader view because I think we recognize that 
we can put in that hard infrastructure but you also have to 
have the reliable power in a cold place and so the exploration 
into this idea of what we might be able to do with SMRs or the 
micro-reactors, but also from the broadband capacity 
perspective, you need to have reliability, as well, and so 
these are key strategic investments that we'd like to have 
further focus and conversation.
    General Green, thank you for noting what we were able to do 
in the CR, making sure that the approaching arrival of the F-
35s, that that is going to be staying on time, on track. We are 
very keen in our focus on, as you say, Secretary Niemeyer, 
making sure that that moves forward without complications.
    Two things. We've heard that with the prospect for steel 
tariffs that this might impact the cost of the projects related 
to the beddown. Do you expect any reprogramming that will be 
necessary within the budget or having to involve us in that 
aspect of it?
    General Green. Ma'am, we're watching that closely along 
with our friends and we have not seen an indication yet that 
that's going to be required.
    Senator Murkowski. Good, good. Appreciate that. And then 
with respect to the beddown itself, I continue to hear concerns 
from folks in the community up there, the builders 
particularly, that the risk of constructing off-base housing is 
higher without the assurances from the Air Force that you're 
not going to move forward with new privatized housing on base 
that would then compete with the off-base construction.
    So this is something that I may raise again with the 
Secretary when she comes before the Defense Subcommittee, but I 
hope that you could convey my interest in providing the 
community builders the assurances that they're hoping for.
    It seems that the discussions are a little bit better right 
now. I'm going to be up there next Friday for our Annual Salute 
to the Military. That again gives me an opportunity to be 
intersecting with not only the folks on the civilian side but 
our military in these discussions.
    So I'm hopeful that we're going to be in a good place but 
any assurances that you can give the community about the Air 
Force intent on the housing side, I think, is greatly 
appreciated.
    General Green. Yes, ma'am. We have not begun any 
discussions about increasing housing privatization there, to my 
knowledge. So I will go back and ask the question again, but 
I'm not sure where this keeps coming from.
    Senator Murkowski. Okay. Good. Well, I appreciate that.
    Mr. Chairman, I have two more quick questions that I'd just 
like to raise for their awareness and we can do follow-up.
    One is Galena Forward Operating Location and this again is 
for you, General Green. A few weeks ago, I was up in Galena 
which hosted the former Galena Forward Operating Location. The 
Air Force has some site restoration obligations. The RAB was 
out there just after my visit. So I'm hoping that we can get 
some kind of a brief on what came from those conversations just 
so I can understand where the Air Force and the community are 
coming from and if we're all on the same page.
    General Green. Yes, ma'am. We can get you a brief on that 
and we certainly work hard to stay aligned with the community.
    Senator Murkowski. I appreciate that, and I know that they 
do, as well.
    And then final question. General Bingham, this is related 
to the Fort Greeley School, you may be familiar with it, but 
this is something that is an issue that just seems to defy 
resolution.
    The rural school district inherited the building which was 
constructed by the Federal Government to educate the kids there 
at Fort Greeley. The district can't afford to maintain the 
school. They've moved out. The Army's proposed to send the 
school district the bill for demolishing the building. The 
school district can't afford it. They can't deal with the 
disposal of the asbestos.
    So we've been in extensive discussions with the Army. They 
just haven't gone anywhere, but I just don't see where it's in 
anyone's best interests to put these small rural school 
districts in financial peril.
    So I'm just hoping that we're going to be able to come to a 
more amicable solution and look forward to working with your 
teams on this.
    General Bingham. Thank you, Senator Murkowski, and I 
remember last year when you asked me that question and I 
remember saying that we wanted to be good neighbors.
    We wholeheartedly, too, appreciate the school district 
educating our children there at Fort Greeley and so to that 
end, we've done a couple of things, though, since we last 
talked about this.
    Working with the school district at the request of the 
garrison to extend the lease to provide us additional time to 
help work through an amicable solution, we in the Army have 
offered to defray costs associated with the landfill there, and 
I'm wondering, though, if we might continue to work with you 
and your team to help perhaps look at a legislative solution 
for local educational agencies for this type of unique 
situation.
    Senator Murkowski. We are happy to explore solutions that 
will work for the community, for the school district, and for 
Army.
    General Bingham. Thank you.
    Senator Murkowski. So thank you. And thank you, Mr. 
Chairman. I promise next round I will not go over my allotted 
time by four minutes. Thank you.
    Senator Boozman. That's fine, and we appreciate your 
leadership on the Arctic and the Homeland Security 
Subcommittee. We were able to, with your leadership, to push 
forward the icebreakers and hopefully we can get----
    Senator Murkowski. We were so, so appreciative of that.
    Senator Boozman. Well, it's so needed and again e 
appreciate your leadership on it very much.
    Senator Murkowski. Thank you.
    Senator Boozman. I've just got a couple more things real 
quick and I think Senator Schatz does, also.
    Major General Green, let me ask you a question concerning 
Little Rock Air Force Base, which certainly, you know, is 
important to the state of Arkansas, but it's also very 
important to the state, not only the state but to the country 
because of its mission.
    As you know, we've had an airport runway situation going on 
since 2014 that, you know, got into the middle of it and it 
wasn't going well and essentially now we're in the situation 
where we're almost starting over again.
    I think the contract will be awarded for redesign in 
September, environmental assessment. A couple things. We've 
been frustrated with it, you know, with the movement of the 
project again since 2014. So let us help you. If you run into 
environmental issues as far as anything that has to do with 
assessments, redoing those, let us help you with those. 
Hopefully there's not going to be a bunch of that.
    The other thing that we'd like is at some point fairly soon 
to know what we anticipate the cost and then also how it's 
going to be paid for. I mean those are fairly basic things.
    So again, like I say, if you'll just commit to kind of 
shepherding that and making sure that we stay on track and do 
the things we can do, we would greatly appreciate that.
    General Green. Yes, sir. That's an easy commitment to make. 
We are all paying a great deal of attention to that runway. 
It's been on my radar since I was at Air Mobility Command back 
in 2011. We've been watching this. So it's of great importance 
to the nation as well as to Little Rock Air Force Base.
    Senator Boozman. Good. Thank you very much. And we do 
appreciate your service and you are going to be missed. That's 
a great compliment coming from an old University of Arkansas 
Razorback fan to a Texas A&M aggie.
    General Green. Yes, sir. I realize that.
    Senator Boozman. But like I say, thank you so much for your 
service and all you represent.
    The other thing is I'd like to ask about--hold on--
accountability and, you know, you mentioned, Vice Admiral 
Smith, you certainly haven't got the money that you'd like but 
you got twice as much as you've had.
    When we look at the projects that are going out, we've got 
all these projects that are exceeding a $100 million, big 
projects. We've got the increase in the economy with the market 
fluctuating that way, which makes a huge difference as you go 
forward with these projects.
    So I guess my question is, you know, what are you doing, 
what tools do we need to give you, if we need to give you some 
more in regarding maximizing the ability to get the best 
prices? How do we hold our contractors accountable? You know, 
those kind of situations. So, again, if you'd like to jump in, 
we can start with you, Mr. Secretary.
    Mr. Niemeyer. Yes, sir. Unfortunately, the Little Rock 
runway is a perfect case where we probably should have done a 
better job overall. I think there's a frustration there, even 
at my level, about how that project was carried out and why we 
didn't do a better job working with the requirements, working 
with the program manager, making sure we had a contractor 
onboard who could do the work, but that's endemic of some of 
the concerns we have right now and some of our execution across 
the board.
    We do have a commitment to the Secretary of Defense to 
deliver military construction projects on time and under 
target. That's probably the best thing we can do. Your 
continued oversight on that is good. I'm not sure we need any 
additional authorities right now or flexibility.
    I think we just need to be able to do a better job of 
working with our construction agents, making sure our 
requirements match what we ultimately build, and then we're 
working with the contractor community to resolve any concerns.
    My concern here is right now, we have contracting officers 
in some cases who are running projects versus the program 
managers, the engineers, and we've got to get a handle on that. 
We've talked to the committee about this before. You've put 
some good language in the past to help us there.
    Continuing with some oversight there, I think, would be 
very beneficial for us so we have to come in and explain 
ourselves, I think, ultimately is good for the American people 
and making sure we're spending dollars prudently.
    Senator Boozman. No. We appreciate that and certainly 
anything we can do language-wise or whatever to be helpful 
would be.
    Vice Admiral Smith, like I say, you've got additional funds 
to go around. What are some of the things that--better 
forecasting? How do we prevent overruns and things like that?
    Admiral Smith. So in the pressurized environment, we've 
been shortchanging ourselves in planning and design and not 
putting enough money into that. So part of this is we've 
increased up to eight percent, from 5 percent to 8 percent of 
the project now for planning and design. So we're going to do a 
better job upfront.
    The other thing we've done, we stole from the acquisition 
community, we weren't doing this on the construction side, is 
as the plan's going on, both Navy Installations Command and 
Navy Facilities Command are going to do gate reviews. So as the 
project goes forward and develops, the commanders and their 
teams of both those organizations are going to review the 
projects to make sure that they're progressing properly so we 
don't find surprises in the backside which is where we have not 
been very good in the past.
    Senator Boozman. Right. Very good. Anybody else?
    [No response.]
    Senator Boozman. Evidently not. Senator Schatz.
    Senator Schatz. Thank you. Let's start with Mr. Niemeyer. 
Can we expect fiscal year 2019 Budget Amendment with MILCON 
requests to reflect the current budget agreement?
    Mr. Niemeyer. I'll have to go check with the comptroller. I 
don't know if we have any particular budget amendments in place 
right now or plans for those.
    Senator Schatz. Okay. I want to talk to you a little bit 
about energy. I know that the department is investing in energy 
resiliency sort of on base in installations.
    I'm wondering what the thinking is outside of the fence 
line, especially to the extent that bases or installations are 
in the United States or on the commercial grid. It seems to me 
we have to worry about outside of the fence line, too. So 
what's your thinking along those lines?
    Mr. Niemeyer. Yes, sir, completely agree. First of all, 
we're really proud what's going on in Hawaii right now working 
with Heiko and collaboratively working together to address any 
issues that occur.
    Senator Schatz. I was hoping you would say that.
    Mr. Niemeyer. I think it's going to end up being a 
fantastic example of how we can work together with the local 
utility to address the concerns in Hawaii, on Oahu, in addition 
to providing energy security that we need to power our critical 
missions up there.
    But on the larger scale, you did hit upon a fantastic 
point. We do have specific requirements for the country where 
we only allow for MILCON inside the fence line. There might be 
a need for a transmission line for maybe two or three miles to 
get us to a substation that might give us a significant amount 
of redundant capability. Right now, our ability to do that is 
limited.
    Senator Schatz. By statute.
    Mr. Niemeyer. By statute and correctly so. I think we need 
to come back to Congress and explain why we want to do this.
    Senator Schatz. But a sort of limited waiver authority, you 
know. This isn't going to be dozens of requests. It's going to 
be only in those instances where it's technically necessary.
    Mr. Niemeyer. Right. What I like, we have a similar program 
for transportation improvements where we need to build a road 
off base. We go through the defense access roads. We come to 
you with the military construction request. Once you 
appropriate funds, then we transfer those funds over to the 
local department of transportation. I would love to have a 
similar authority where we can then come to you, you all can 
authorize and appropriate it, and then we can then work with 
the utility, okay, where we need that last bit of line or that 
last bit of a substation that's off an installation that gives 
us energy security.
    Senator Schatz. And the vote is coming up. So I'll take the 
next two for the record and the first question is for Mr. 
Niemeyer and Major General Coglianese.
    You know, I continue to worry about the plan to relocate 
Marines to Guam. I think that it is fraught with technical, 
political, logistical funding challenges, and I think we've had 
stars in our eyes about how easy this was going to be for the 
last--you know, as long as it's been the plan, it's been a, 
relatively speaking, unrealistic plan.
    Now I think we've getting closer to being able to execute, 
I understand that, but there are still pretty big challenges on 
the plan, training ranges, and Commonwealth of Northern Mariana 
Islands (CNMI), and my question specifically is do you have 
contingency plans if Tinian and Pagan can't be built? How do we 
maintain our ability to train if National Environmental Policy 
Act (NEPA) or local politics or logistics or contractor 
availability or whatever it may be cause us to have to move the 
timeline to the right? So that's one for the record.
    Senator Schatz. And then, finally, I just wanted to echo 
the Chairman's enthusiasm for the Office of Economic Adjustment 
and I'll offer a question for the record, but I know that 
there's been discussion sort of at both sides of this dais 
around the Office of Economic Adjustment, but from the 
policymakers' perspective, I think it's at least pretty nearly 
unanimous.
    Mr. Niemeyer. Thank you for the support for that office.
    Senator Schatz. Thank you.
    Senator Boozman. Well, thank you all so much for being here 
and I think we had a really good hearing. I know you all are 
busy, you got lots to do, but it's so important to come over 
and tell us what's going on and also for us to figure out how 
we can help you. That's really what's all about, is trying to 
make the branches that you all represent as efficient as 
possible and making the life of the men and women that serve in 
uniform as easy as we can, also, in the sense of that 
commitment.

                     ADDITIONAL COMMITTEE QUESTIONS

    So, again, we appreciate very, very much. For members of 
the subcommittee, any questions for the record should be turned 
into the subcommittee staff no later than Friday, May 4th, and 
with that, the meeting adjourned.
      Questions Submitted to Lieutenant General Gwendolyn Bingham
             Questions Submitted by Senator Richard Shelby
    Question. The FBI has significant ongoing construction at Redstone 
Arsenal, including $103 million for fiscal year 2018. It is my 
understanding that the Army also has Military Construction planned over 
the course of the Future Years Defense Program that will further 
enhance and support the FBI's mission. Please describe your efforts to 
collaborate with the FBI, as well as what synergies exist between FBI 
and DoD efforts at Redstone.
    Answer. The construction efforts by the Federal Bureau of 
Investigations (FBI) on Redstone Arsenal are a result of extensive 
collaboration between FBI planners and United States Army Garrison 
Redstone Arsenal master planners. While the FBI missions are varied in 
scope and complexity, they have found many partners, such as Redstone 
Test Center and Aviation and Missile Research Development and 
Engineering Center, on the arsenal performing complimentary missions. 
Redstone Arsenal is the home of explosive operations ranging from 
propulsion research, development and manufacturing, to reverse 
engineering of explosive systems. These operations are in line with the 
operations of the FBI at Redstone Arsenal.
    An example of a future years MILCON project is the Propulsion 
Systems Lab at the Arsenal that includes the construction of an 
intentional detonation range which is proposed to be co-utilized by the 
FBI. Additionally, this project will remove explosive operations off 
the Redstone Road corridor, and allow the FBI's Hazardous Devices 
School to fully utilize their campus.
                                 ______
                                 
            Questions Submitted to Honorable Lucian Niemeyer
              Questions Submitted by Senator Brian Schatz
                     realignment of marines to guam
    Question. Please provide the latest force flow timetable for the 
realignment of Marines to Guam, to include an update on current force 
structure expectations.
    Answer. The flow of forces is expected to begin in the mid-2020s 
and will take approximately 2 years to complete. As of this date, no 
decisions to change the force mix of the Marines relocating to Guam 
have been made. Within the Program of Record, a Marine Air-Ground Task 
Force (MAGTF) will be established on Guam. This MAGTF will consist of a 
Marine infantry regiment, a combat logistics battalion, and a composite 
aviation combat element under the supervision of a Marine Expeditionary 
Brigade command element.
                            training ranges
    Question. What is the status of the planned training ranges in 
CNMI?
    Answer. The USMC is leading this initiative on behalf of the U. S. 
Pacific Command. The Department is proposing a $910 million initiative, 
with a Government of Japan contribution of $300 million, to develop 
live fire ranges and training areas in the CNMI to increase joint 
military training capabilities in the Indo-Pacific region. The 
environmental analysis for these ranges is on-going as required under 
the National Environmental Policy Act (NEPA) process. We anticipate 
completion in 2020. Department leadership is tracking this requirement 
very closely.
                        tinian and pagan ranges
    Question. Are there any contingency plans to develop alternative 
ranges to ensure unit-level training for Marines on Guam if the ones on 
Tinian and Pagan cannot be built?
    Answer. INDOPACOM has conducted multiple training studies and has 
identified the need for the training capabilities offered by CNMI Joint 
Military Training in the Marianas. As the westernmost U.S territories, 
Pagan and Tinian would be the only U.S. venue in the region able to 
fully meet INDOPACOM's training requirements.
                         marine relocation plan
    Question. Would the overall scope of the projects requested this 
year and over the next few years change, or could they even change, 
under any modifications to the Marine relocation plan?
    Answer. The scope for projects requested this year will not change. 
Since the plan's inception in 2006 we have consistently worked with our 
Japanese partners to ensure we have the best operational laydown and we 
will continue to do so, making adjustments when necessary. At this time 
we are not seeking changes to the current plan.
                     oea support for installations
    Question. How does OEA support our installations and improve 
readiness?
    Answer. The support of defense communities and States are 
absolutely essential to protect our military installations and ranges 
in the Department of Defense. In addition, these same communities will 
have a critical role in the enhancement of training and readiness 
activities and the resilience of military infrastructure to support the 
priorities of the National Defense Strategy. OEA is the Secretary of 
Defense's primary office for interaction and collaboration with the 
states, territories, and hundreds of defense communities around the 
country on initiatives to preserve and enhance military capabilities. 
OEA's current mission lines: 1) directly support lethality and 
readiness, quality of life, and collaboration and alliance; 2) are 
neither duplicated, nor replicated, elsewhere in the Department; 3) 
leverage other Federal, state, and local resources to support the 
Department; and, 4) routinely lessen the political cost to any 
Department effort that impacts states and cities. Specifically, the OEA 
program of assistance includes the following efforts: Provides 
essential planning assistance to defense states and communities to 
support safe and secure military operations at our installations and 
ranges by promoting compatible development near these facilities and 
working to alleviate instances of incompatible development. Often these 
efforts lead to civilian activities in addition to the assistance 
provided that directly benefits the Department. Works with states and 
communities to help strengthen the resilience of their supply chains to 
withstand the fluctuations of Defense spending. These efforts maintain 
the effective delivery of goods and services for our installations and 
warfighters. Often these efforts also include strengthening and 
sustaining civilian activities to make these supply chains more 
resilient so they can effectively function under the current 
cybersecurity environment. Helps defense communities effectively work 
with the Services to facilitate the prompt transfer of surplus and 
excess property, which frees up critical resources to be used to 
support the warfighter. This program allows defense communities to 
leverage Federal, state, local, public, and private resources to 
effectively redevelop the base property, which minimizes the economic 
impact of the closure.
                            oea elimination
    Question. Please detail potential impacts on our installations and 
readiness if OEA programs were eliminated.
    Answer. OEA's mission is neither duplicated nor replicated 
elsewhere in the Department--it is the Secretary of Defense's primary 
office for interaction and collaboration with the states, territories, 
and hundreds of defense communities around the country on initiatives 
to preserve military capabilities. Great care has been taken through 
OEA's existence to ensure OEA's mission has not be duplicated in the 
Services and that its capabilities support and benefit the Services. 
The costs of eliminating OEA would result in additional costs to 
establish the capability elsewhere, and could result in redundant 
efforts across each of the Military Departments. OEA's program of 
assistance is the only means for the Department--and the Federal 
government as a whole--to directly impact civilian activities that, in 
turn, provide direct value and savings to the warfighter by allowing 
the Department to reduce costs through shedding excess infrastructure, 
engaging a more resilient supply chain and competitive defense 
manufacturing sector, and enhancing lethality of our assets.
                                 ______
                                 
           Questions Submitted to Major General Timothy Green
               Questions Submitted by Senator Jon Tester
                         unfunded program list
    Question. The Air National Guard lists two MILCON projects on its 
Unfunded Program List located in Puerto Rico. Both of those projects 
list ``Hurricane Maria'' in their project name. Why weren't these 
projects funded out of the emergency military construction funds 
provided in response to the 2017 Hurricane season?
    Answer. Both projects were submitted for inclusion in the Hurricane 
Supplemental through the Air Force to OSD. OSD determined that the 
projects were not executable in fiscal year 18 and did not submit them 
as a part of the supplemental to Congress.
    Question. Is the Air National Guard prepared to, and will the 
recovery situation on the ground allow, for this military construction 
right now if they were funded and authorized?
    Answer. The ANG is actively working through the Navy Facilities 
Engineering Command (NAVFAC) to ensure that these project are awardable 
in fiscal year 2019 if funded and authorized. NAVFAC has indicated that 
they can execute the projects via Design-Build.

                          SUBCOMMITTEE RECESS

    Senator Boozman. Thank you.
    [Whereupon, at 12:04 p.m., Thursday, April 26, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
